     Semiannual Report
       to the Congress
                               Volume 50


          Office of Inspector General
           U.S. Department of Labor




April 1 – September 30, 2003
U.S. Department of Labor                     Office of Inspector General
                                             Washington, DC 20210




      I am pleased to transmit the 50th Semiannual Report to the Congress on our significant activities,
      knowing that our recent work furthers the mission envisioned by the Congress for OIGs a quarter of
      a century ago. The report covers the six-month period ending on September 30, 2003, during which
      we identified $428 million in funds put to better use and $5.2 million in questioned costs. Moreover,
      our investigative work resulted in 196 indictments, 136 convictions, and over $24 million in monetary
      accomplishments.

      During this reporting period, the Department of Labor’s (DOL’s) OIG completed significant audit and
      investigative work relating to the Unemployment Insurance (UI) program. Our audit of the DOL
      system used to monitor UI overpayments found that the system accurately projects overpayments
      but is not being used by DOL to strengthen controls over benefit payments. We concluded that
      expediting the implementation of new-hire database connectivity in 10 states, and increasing its use
      in another eight states, could save the Unemployment Trust Fund an estimated $428 million
      annually. In addition, OIG investigations highlighted losses resulting from identity theft–related fraud
      against the UI program. Two investigations cited in this report identified nearly $9 million in fraud by
      Mexican nontraditional organized crime groups who used stolen identities to obtain UI benefits.

      Other accomplishments over the last six months include investigations of fraud against the
      Department’s foreign labor certification programs. In one such case, an individual pled guilty to visa
      fraud charges for conspiring to forge alien employment certifications after filing more than 900 such
      applications with DOL. A related OIG assessment found that the Department’s role in the labor
      certification process continues to be perfunctory and therefore does little to protect American jobs
      and workers. In addition, OIG audits and evaluations of employment and training grants identified
      insufficient documentation of performance data. For example, an evaluation of Workforce Investment
      Act youth programs found that only 37% of performance measures were adequately documented.

      Finally, our labor racketeering investigations resulted in numerous convictions. For example, a
      former United Public Workers Union state director received five years’ imprisonment and was
      ordered to pay $428,000 in restitution for embezzling union assets and receiving benefit plan–related
      kickbacks, among other charges. Two associates of the Gambino Organized Crime Family were
      sentenced to 30 and 33 months’ imprisonment, respectively, for extorting money from a clothing
      manufacturer in exchange for labor peace. In addition, the president of Teamsters Union Local 25,
      who was also a benefit plan trustee, pled guilty to Hobbs Act extortion, conspiracy to embezzle from
      a benefit program, filing false documents under the Employee Retirement Income Security Act, and
      other charges.

      In our ongoing effort to promote the economy, efficiency, effectiveness, and integrity of DOL
      programs, the OIG will continue to work constructively with the Secretary of Labor and the DOL
      team. In so doing, we will help detect waste, fraud, and abuse against programs that serve and
      protect the rights and benefits of American workers and retirees, as the OIG has done since its
      creation.




      Gordon S. Heddell
      Inspector General




                              Working for America’s Workforce
                 Contents



Selected Statistics...................................................................................................................... 2
Significant Concerns .................................................................................................................. 3

Employment and Training
Workforce Investment Act .......................................................................................................... 7
National Farmworker Jobs Program..........................................................................................11
Job Corps .................................................................................................................................12
Job Training Partnership Act .....................................................................................................13
Tax Credit Programs.................................................................................................................14
Foreign Labor Certification Programs........................................................................................15
Trade Adjustment Assistance Program .....................................................................................18

Worker Benefits
Unemployment Insurance Program...........................................................................................19
Federal Employees’ Compensation Act Program ......................................................................23
Davis-Bacon Act .......................................................................................................................24

Worker Safety, Health, and Workplace Rights
Occupational Safety and Health Act..........................................................................................25


Departmental Management
Information Technology Audits..................................................................................................27
Employee Integrity Investigations..............................................................................................28



Labor Racketeering
Internal Union Investigations .....................................................................................................30
Labor-Management Investigations ............................................................................................32
Benefit Plan Investigations ........................................................................................................33

Legislative Recommendations ..................................................................................................36
Appendix...................................................................................................................................39




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                                                           1
       Selected Statistics


                                                Selected Statistics
                              For the Period April 1, 2003–September 30, 2003


Funds put to better use ........................................................................................ $428 million

Total questioned costs .......................................................................................... $5.2 million

Outstanding questioned costs resolved during this period..................................... $7.3 million
   Allowed1 .......................................................................................................... $4.7 million
   Disallowed2...................................................................................................... $2.6 million

Investigative recoveries, cost efficiencies, restitutions,
fines/penalties, forfeitures, and civil monetary action .......................................... $24.5 million

Audit and evaluation reports issued .................................................................................... 59

Investigative cases opened ............................................................................................... 216

Investigative cases closed ................................................................................................ 280

Investigative cases referred for prosecution ........................................................................ 97

Investigative cases referred for administrative/civil action ................................................... 73

Indictments ....................................................................................................................... 196

Convictions ....................................................................................................................... 136



Note: The OIG conducts criminal investigations of individuals that can lead to prosecutions by
criminal complaints, warrants, informations, indictments, or pretrial diversion agreements.
Successful prosecutions may carry sentences such as fines, restitutions, forfeitures, or other
monetary penalties. The OIG financial accomplishments, which include administrative and civil
actions, are further detailed and defined in the appendix of this report.
1
    Allowed means a questioned cost that DOL has not sustained.
2
    Disallowed means a questioned cost that DOL has sustained or agreed should not be charged
    to the government.




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                                                          2
    Significant Concerns


Significant Concerns

Fraud Against DOL Programs by
Emerging Organized Crime Groups
                            OIG investigations have exposed costly fraud against the Unemployment
                            Insurance (UI) program by emerging nontraditional organized crime
                            groups, raising concern about the vulnerability of other programs to
                            similar crimes. For years, OIG work disclosed fraud against DOL
                            programs by individual criminals, claimants, and service providers.
                            However, recent OIG investigations are identifying UI program fraud by
                            emerging organized crime groups. These new groups from Asia, Eastern
                            Europe, and elsewhere have a formalized structure like the “Mob” or the
                            Mafia but target government programs to a far greater extent.
                            Nontraditional organized crime involvement has resulted in UI fraud
                            schemes that are more costly, complex, and far reaching than those of
                            the past.

                            For example, an identity theft scheme operated by a Mexican
                            nontraditional organized crime group out of California involved almost
                            $3 million in fraudulent UI claims. A joint investigation led by the OIG
                            determined that the group defrauded four states’ UI programs using at
                            least 3,000 stolen identities to file false UI claims. Thirteen members of
                            the group were indicted on charges of conspiracy, mail fraud, identity
                            theft, and money laundering as a result.

                            In addition to identity theft schemes, the OIG continues to uncover UI
                            check-counterfeiting fraud and schemes involving the creation of fictitious
                            companies for the purpose of claiming UI benefits. We are concerned that
                            vulnerabilities in the UI and other DOL programs, including application
                            processes that eliminate the need for individuals to appear in person,
                            make them targets for the type of large-scale, high-impact fraud being
                            committed by nontraditional organized crime groups.


Vulnerabilities in DOL Foreign
Labor Certification Programs
                            DOL foreign labor certification programs allow U.S. employers to hire
                            foreign workers when qualified American workers are not available or
                            when hiring foreign workers will not adversely impact American workers
                            and legal residents. Before hiring foreign laborers, participating employers
                            must apply to DOL for certification that the conditions of these programs
                            are being met. This certification is the first step in a multi-agency process
                            by which aliens obtain visas to work legally in the United States. OIG
                            investigations continue to detect fraudulent applications filed with DOL on
                            behalf of fictitious employers and applications that use the names of

Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                       3
    Significant Concerns

                            legitimate employers without their knowledge. These cases often involve
                            immigration attorneys and labor brokers who collect fees and file
                            fraudulent applications on behalf of aliens seeking to work in the United
                            States. For example, as the result of an OIG-led investigation, a woman
                            falsely claiming to be an attorney pled guilty to visa fraud for conspiring to
                            forge alien employment certifications. She filed more than 900 fraudulent
                            applications and charged foreign workers up to $8,000 per certification.

                            We remain concerned that the Department’s role in the labor certification
                            process is perfunctory. Under the H1-B specialty workers program, DOL
                            is required by law to approve applications submitted by employers unless
                            they are “incomplete or obviously inaccurate.” Under the permanent labor
                            certification program’s new electronic processing and approval system,
                            most human screening of certification applications will be eliminated,
                            thereby reducing controls over application information. Under the H-2B
                            temporary nonagricultural program, the Department’s approval or denial
                            of employers’ applications is strictly advisory to the visa issuer. DOL’s role
                            in the labor certification process, either because it is nearly automatic or
                            strictly advisory, adds little value to the process of protecting American
                            jobs and wages.


Documentation of Performance Data
                            Accurate, well-documented information on the results of DOL programs is
                            key to evaluating the effectiveness of programs and managing to achieve
                            optimal outcomes. Ensuring the quality of such data, which are often
                            generated by states and other entities below the Federal level, presents
                            difficulties for the Department.

                            The OIG has disclosed high error rates in grantee-reported performance
                            data for programs administered by the Employment and Training
                            Administration (ETA). This report includes examples of poorly
                            documented outcomes that illustrate the problem. For example, an OIG
                            evaluation of the Workforce Investment Act youth program found that only
                            37% of performance measures related to the accomplishments of
                            participating youth in our sample were adequately documented. In
                            addition, only 72% of services provided to youth by local Workforce
                            Investment Boards were adequately documented.

                            ETA has initiated a data validation project to create more precise
                            programming specifications and standards for use in validating that
                            grantees correctly report data for ETA programs. The OIG will continue to
                            follow this project to ensure the reliability of program data.




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                        4
    Significant Concerns


Managerial Cost Accounting
                            In order to manage DOL programs for results and fully integrate budget
                            and performance as envisioned by the President’s Management Agenda,
                            the Department needs a managerial cost accounting system that matches
                            cost information with program outcomes. The OIG’s report on the
                            Department’s FY 2002 financial statements included our opinion that DOL
                            was not in substantial compliance with the Federal Financial Management
                            Improvement Act (FFMIA) because DOL had not complied with
                            managerial cost accounting requirements in Federal accounting
                            standards. While the Department subsequently determined that DOL was
                            in substantial compliance with the FFMIA, as allowed by the Act, we
                            maintained that DOL had not implemented managerial cost accounting in
                            accordance with Federal standards. This was because costs were not
                            reported at the required level, and there was no integrated system DOL
                            could use to manage programs on a day-to-day basis. We recommended
                            that the Chief Financial Officer ensure the development of a
                            comprehensive Department-wide managerial cost accounting system.

                            In May 2003, the Department issued its Managerial Cost Accounting Plan
                            of Action that called for a 14-month timeframe to implement initial
                            managerial cost accounting capability across DOL. Among the Plan’s
                            objectives are to make progress toward demonstrating substantial
                            compliance with Federal financial reporting requirements, to complete
                            initial DOL-wide implementation by the end of July 2004, and to support
                            the Department’s FY 2006 budget process. We will continue to monitor
                            and assess the Chief Financial Officer’s implementation of DOL’s
                            managerial cost accounting plan to determine its effect on financial and
                            performance reporting.


Single Audit Act Audits
                            The Department relies on the Single Audit Act to provide audits for over
                            90% of its expenditures, including grant costs and UI benefit costs. The
                            OIG is concerned about the adequacy of information being provided to
                            the Department in these audits, which are conducted by public
                            accountants or state auditors and procured with DOL grant funds. Quality
                            control reviews we conducted found serious deficiencies in single audits,
                            including inadequate sampling, which would make the audits unreliable.
                            As a result, the OIG continues to monitor and evaluate single audits, and
                            will work with DOL’s grantor agencies to improve their monitoring and
                            evaluation activities. In coordination with OMB, the OIG will continue our
                            multi-year review of single audit reports to determine the adequacy of the
                            audit coverage and whether DOL can continue relying on single audits for
                            financial management purposes. Further, we are working with the OMB
                            National Single Audit Sampling Plan project to assess the quality of


Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                    5
    Significant Concerns

                            Single Audits government-wide. We believe this will improve the quality
                            and usefulness of single audits, to the benefit of DOL and other Federal
                            agencies. However, the Department through its monitoring should also
                            ensure that grantees procure quality audits and that the results of these
                            audits are fully utilized by the grantees and the Department to improve
                            programs.


Workforce Investment Act Reauthorization
                            Seeking revisions to the Workforce Investment Act (WIA) during the
                            reauthorization process so that it can better achieve its goals poses
                            challenges for the Department. Revisions recommended by the OIG are
                            discussed in the Legislative Recommendations section of this report on
                            page 36. While legislation has been proposed that addresses some of the
                            concerns we have identified in our work on the WIA program, such as
                            burdensome performance reporting and eligibility requirements imposed
                            on training providers that make some providers unwilling to serve WIA
                            participants, OIG audits offer further lessons and insights that should be
                            considered during reauthorization.




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                    6
       Employment and                                                   Workforce Investment Act
      Training Programs

Workforce Investment Act
                            The Workforce Investment Act of 1998 (WIA) provides employment and
                            training services and activities through statewide and local One-Stop
                            Career Center systems. Title I of WIA deals with employment and training
                            programs designed to increase the employment retention, earnings, and
                            skill attainment of youths and dislocated workers.


Services and Outcomes of
the Dislocated Worker Program
Generally Positive, but
Improvements Can Be Made
                            The OIG conducted a nationwide audit of services provided to and
                            outcomes obtained for participants enrolled in the WIA Dislocated Worker
                            program during program year (PY) 2000. The purpose of the audit was to
                            provide a snapshot of individuals served, services provided, program
                            performance, and participant satisfaction. The Dislocated Worker
                            program, funded by grants awarded to states on a formula basis, provides
                            a variety of core, intensive, and training services, primarily through One-
                            Stop Career Centers. These services are intended to help dislocated
                            workers reenter the workforce. The annual appropriation for fiscal years
                            (FYs) 1999 through 2003 ranged from $1.4 to $1.6 billion.

                            Our audit disclosed that overall, participants obtained employment,
                            retained a large percentage of their layoff earnings, kept their postlayoff
                            jobs, and were satisfied with most of the services provided. However,
                            additional focus is needed to ensure that the program serves only eligible
                            people, participants return to the workforce as quickly as possible,
                            reported outcomes are complete and meaningful, and participants are
                            more satisfied with job-finding assistance.

                            For 65% of the participants sampled, One-Stop Career Centers were
                            unable to demonstrate that participants were unlikely to return to their
                            previous industries or occupations, which is a core requirement for
                            eligibility in the program. This issue was previously identified in an OIG
                            report issued in June 2000.

                            One out of every four sampled participants was still enrolled in the
                            program by the end of audit fieldwork. These participants had exhausted
                            their unemployment compensation, spent at least 514 days in the
                            program (with some participants exceeding 700 days in the program), and
                            received minimal assistance after completing training. In contrast,
                            participants who exited spent 236 days, on average, in the program. As a
                            result, nonexiters fell short of achieving the Department’s goal of quickly



Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                     7
       Employment and                                                     Workforce Investment Act
      Training Programs

                            returning the unemployed to the workforce and remained unaccounted for
                            in the official performance measures.

                            Further, to present a more comprehensive picture of the status of all
                            sampled participants, we supplemented the official performance
                            measures with an analysis of the employment status at various points in
                            time for all participants in the sample regardless of their exit status. At any
                            point between 12 and 18 months after registering in the program or being
                            laid off, two-thirds of participants were employed, which is lower than the
                            reported employment rate upon entrance—nearly 80%.

                            Moreover, participants were not as positive about the Dislocated Worker
                            program as they were about the Job Training Partnership Act program,
                            nor were they as positive about job-finding assistance, which is a primary
                            function of WIA. Among the recommendations we made to ETA to
                            improve services and outcomes of the program were:
                                    •   provide additional guidance regarding documentation of
                                        unlikelihood of return to previous industry or occupation;
                                    •   require the states to supplement their annual reports with
                                        information on all participants’ employment status, in order to
                                        more fully represent outcomes;
                                    •   clarify the exit definition;
                                    •   study why some participants were in the program for more
                                        than one year, and explore the possibility for One-Stop Career
                                        Centers to provide intensive job services to those participants;
                                        and
                                    •   examine why participants are relatively less satisfied with job
                                        search assistance, which plays a key role in successful
                                        reemployment.
                            Although ETA responded to the report, it did not specifically address the
                            recommendations. However, ETA did suggest some additional language
                            to further clarify some aspects of the report, which was considered and
                            included where appropriate. (OA Report No. 02-03-204-03-390, issued
                            September 30, 2003)


Evaluation Reveals That WIA’s Youth
Programs Can Be More Focused
                            The OIG conducted an evaluation of WIA youth programs operated by
                            local Workforce Investment Boards (LWIBs). Our objective was to provide
                            information regarding services provided to and outcomes for participants
                            who registered during WIA’s first full year of operation (PY 2000). The
                            transition from JTPA to WIA called for substantial reforms for youth
                            employment and training programs. WIA shifted the youth program’s
                            focus from short-term training and job placement to long-term,
                            comprehensive youth services that provide the education, skills, work


Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                         8
       Employment and                                                  Workforce Investment Act
      Training Programs

                            experience, and support that youth need to transition successfully to
                            careers and productive adulthood.

                            Based on our evaluation of 14 LWIBs, we determined that the youth
                            program generally provided summer employment opportunities to in-
                            school youths ages 14 through 18. The LWIBs reported these younger
                            participants were enrolled equally in employment-related, educational,
                            and work-readiness activities, whereas older youths ages 19 through 21
                            were enrolled more in employment-related activities. We also determined
                            that only 37% of the recorded performance measures and 72% of
                            reported activities for our sample youths were adequately documented.

                            Under WIA, summer youth employment is not intended to be a stand-
                            alone program. However, we found that although most participants were
                            reported enrolled in multiple activities, over 40% of the enrollees who
                            enrolled in May and June may have enrolled only for the summer
                            employment program. We recommended that ETA:
                                    •   continue to push its proposed amendments to WIA that would
                                        focus the program on those youths most in need (i.e., out-of-
                                        school, at-risk youths);
                                    •   promote amendments to WIA to allow summer employment as
                                        a stand-alone activity for those participants whose individual
                                        assessments indicate such a need; and
                                    •   require that youth program administrators and/or contractors/
                                        service providers better document services provided and
                                        outcomes recorded to ensure that programs are accurately
                                        evaluated.
                            ETA generally concurred with our recommendations; however, it took
                            issue with the recommendation to allow summer employment as a stand-
                            alone activity. The OIG believes that even in a fully integrated program, a
                            youth’s only need may be occupational and work-readiness skills, and
                            employment during the summer months could be sufficient to teach those
                            skills. Accordingly, we believe that services should be provided based on
                            assessed needs and that program providers should have the flexibility to
                            determine which services will best meet those needs. (OA Report No. 06-
                            03-006-03-390, issued September 30, 2003)


Evaluation Finds Questionable Practices at
New Mexico One-Stop Career Center
                            The OIG evaluated a complaint alleging improprieties at the New Mexico
                            Department of Labor (NMDOL) Las Cruces One-Stop Career Center to
                            determine its merit. The complaint made allegations concerning the
                            operation and management of the center, including participant eligibility,
                            state vehicles being used for nonofficial business, nepotism, and the



Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                     9
       Employment and                                                    Workforce Investment Act
      Training Programs

                            requiring of employees to participate in religious meetings and read
                            religious books.

                            We found evidence to support some allegations, including evidence of
                            failure to follow policies and procedures for processing entitlement
                            applications for family members of NMDOL employees, misuse of center
                            vehicles, and religious activities by center officials during business hours.
                            The NMDOL generally agreed with our findings and, overall, has taken
                            appropriate corrective actions. However, NMDOL did not address the
                            issue of Career Center employees keeping state vehicles at their
                            residences, and we recommended that ETA have NMDOL reexamine the
                            issue. (OA Report No. 21-03-010-03-390, issued August 18, 2003)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                      10
       Employment and                                      National Farmworker Jobs Program
      Training Programs

National Farmworker Jobs Program
                            The National Farmworker Jobs Program (NFJP) provides training and
                            employment assistance for migrant and seasonal farmworkers. It was
                            authorized by Congress in WIA to counter the impact of chronic
                            unemployment and underemployment experienced by migrant and
                            seasonal farmworkers who primarily depend on jobs in agricultural labor.
                            Since its inception with the passage of the Economic Opportunity Act of
                            1964, NFJP has been an integral part of the national workforce strategy.
                            Migrant and seasonal farmworkers now access NFJP and other
                            employment assistance through the One-Stop Career Centers of the
                            workforce investment system.


Audits of NFJP Grantees Determine
Reasonable Costs in Most Cases
                            The OIG conducted a series of performance audits of NFJP grants to
                            determine whether the program was operating in accordance with
                            applicable regulations. We audited six grantees, testing the direct and
                            indirect costs claimed for reimbursement to determine if the costs were
                            reasonable, allowable and allocable, and properly supported. The
                            grantees selected for review were Telamon in North Carolina, Georgia,
                            and Delaware; Motivation, Education, and Training, Inc. (MET) in Texas;
                            the Florida Department of Education in Florida; Proteus, Inc., in
                            California; Transition Resources Corporation in Indiana; and Rural
                            Missouri, Inc., in Missouri.

                            In most cases, our audits found that the indirect costs were equitably
                            allocated among the different programs administered by the grantees.
                            However, our examination yielded some instances of questioned costs
                            totaling approximately $38,000, some of which grantees agreed to and
                            took corrective actions. We recommended that ETA recover the
                            outstanding questioned costs. The grantees generally agreed with our
                            findings. (Telamon Corporation, Report No. 21-03-016-03-365, issued
                            August 13, 2003; Telamon, Georgia, Report No. 21-03-018-03-365, and
                            Telamon, Delaware, Report No. 21-03-019-03-365, issued September 30,
                            2003; MET, Indirect Costs, Report No. 21-03-014-03-365, and MET,
                            Performance Audit, Report No. 21-03-015-03-365, issued August 14,
                            2003; Florida Department of Education, Report No. 21-03-011-03-365,
                            issued May 6, 2003; Rural Missouri, Inc., Report No. 05-03-004-03-365,
                            issued September 8, 2003; Proteus Inc., Report No. 21-03-013-03-365,
                            issued September 5, 2003; and Transition Resources, Report No. 21-03-
                            001-03-365, issued September 8, 2003)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                 11
       Employment and                                                                   Job Corps
      Training Programs

Job Corps
                            Job Corps, established by Congress in 1964 and currently authorized
                            under the Workforce Investment Act of 1998, is recognized today as the
                            nation’s largest and most comprehensive residential education and job
                            training program for at-risk youths ages 16 through 24. More than 70,000
                            students participate annually in the program. Operations of the program
                            are carried out at 118 residential facilities that emphasize intensive
                            education, vocational training, youth development, counseling, job
                            placement, and follow-up. For FY 2003, more than $1.5 billion was
                            appropriated for Job Corps.


More Than $645,000 Questioned in
Audit of Turner Job Corps Center
                            The OIG audited Global Associates’ operation of the Turner Job Corps
                            Center in Albany, Georgia, to determine whether expenses were
                            accurately and adequately documented and laws, regulations, and
                            contracts were followed. We questioned $645,945 in costs charged for a
                            security services subcontract. The subcontractor’s invoices for certain
                            time periods lacked adequate documentation, and expenses were
                            reported that did not appear in the original budget proposal.

                            We also identified a need to improve controls over property and
                            equipment such as acquisitions not being consistently entered into the
                            electronic property management system on a timely basis, undocumented
                            transfers of property, and items not being approved by DOL prior to
                            acquisition. Among our recommendations were that ETA require the
                            contractor to refund $645,945 spent on questioned security services and
                            ensure that invoices show adequate support for amounts billed.

                            With certain exceptions, the contractor concurred with our audit findings
                            and provided explanations for many of the property discrepancies noted
                            in our report. In general, the response focused on the fact that a new
                            contractor now operates the center and that changes have been made to
                            various procedures used to control and account for center property. (OA
                            Report No. 03-03-004-03-370, issued August 7, 2003)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                  12
       Employment and                                                 Job Training Partnership Act
      Training Programs

Job Training Partnership Act
                            On July 1, 2000, Title I of WIA replaced the Job Training Partnership Act
                            (JTPA) as the main Federal law to provide skills training and job search
                            assistance to eligible youths and adults. To facilitate the transition to WIA,
                            ETA issued guidance to states on how to properly close out their JTPA
                            grants. By evaluating the closeout process, the OIG has helped ETA
                            identify how states can improve their monitoring of federally funded
                            employment training programs.


Closeout Evaluations of Several
JTPA Grantees Generally Positive,
but Some Problems Noted
                            The OIG evaluated the closeout submissions of Job Training Partnership
                            Act grants awarded to eight states (Texas, Pennsylvania, New York,
                            Kentucky, Hawaii, Iowa, California, and Ohio) and Puerto Rico from July
                            1, 1997, through June 30, 2000, to determine whether JTPA funds were
                            closed out in accordance with ETA instructions and whether costs
                            included on closeout reports were supported.

                            We generally found that JTPA expenditures on the closeout reports
                            matched the states’ accounting records. However, prior Single Audit Act
                            audits identified several problems that remained outstanding at the time
                            of our reviews. Most of the grantees agreed with the findings and
                            information in our reports. Each report includes the state’s full response,
                            including any reasons for its disagreement with specific findings and/or its
                            plans to address outstanding deficiencies. (OA Report Nos. 04-03-003-
                            03-340, 04-03-013-03-340, 04-03-014-03-340, 04-03-015-03-340, 04-03-
                            016-03-340, 04-03-018-03-340, 04-03-019-03-340, and 04-03-020-
                            03-340, issued May 5, 2003, and Report No. 04-03-021-03-340, issued
                            May 6, 2003)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                       13
       Employment and                                                          Tax Credit Programs
      Training Programs

Tax Credit Programs
                            The Work Opportunity and Welfare-to-Work Tax Credit programs are two
                            Federal tax credit incentives that encourage employers to hire targeted
                            groups of job seekers by reducing employers’ Federal income tax liability.


Wisconsin Woman Sentenced for
Defrauding Tax Credit Program
                            On August 7, 2003, Annette Fabry, owner of A.F. Business Resources,
                            was sentenced to one year’s imprisonment and ordered to pay nearly
                            $300,000 in restitution and fines. Fabry pled guilty on May 16, 2003, to
                            mail fraud and tax fraud charges related to a scam that she ran from 1997
                            to 2001. The investigation found that Fabry would offer to prepare and
                            submit documents for businesses to obtain tax credits through the Work
                            Opportunity and Welfare-to-Work Tax Credit programs by hiring people
                            who qualified under those programs. She charged 15% of the tax credits
                            that her clients were able to claim and fraudulently obtained certifications
                            from the State of Wisconsin by submitting forged or altered documents
                            that made it appear that the employees met the eligibility requirements.
                            During the four-year period, Fabry falsely obtained more than 270
                            certificates and collected more than $74,000 in fees from the various
                            businesses. This investigation was conducted with the assistance of the
                            Internal Revenue Service (IRS). U.S. v. Fabry (E.D. Wisconsin)


Defendant Pleads Guilty to
Making False Statements
                            David Loney, owner of Loney-Herrig Management Services, pled guilty on
                            April 14, 2003, to charges of making false statements and filing false tax
                            returns. The investigation revealed that Loney operated a Work
                            Opportunity and Welfare-to-Work Tax Credit and tax-consulting firm for
                            more than 60 businesses in 44 states. From 1996 through May 2000,
                            Loney used several different methods of improperly inflating his clients’
                            tax credits and inflated the fees collected from his clients. One method
                            used was to enter false information on tax credit forms to make ineligible
                            employees appear to meet the criteria for employers to receive a tax
                            credit. This investigation was worked with the IRS Criminal Investigations
                            Division and the Dubuque Police Department. U.S. v. Loney (N.D. Iowa)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                     14
       Employment and                                      Foreign Labor Certification Programs
      Training Programs

Foreign Labor Certification Programs
                            The Department’s foreign labor certification programs provide employers
                            access to foreign labor. These programs—the permanent alien labor
                            certification program, the H-2A seasonal and temporary agricultural
                            program, and the H-2B temporary nonagricultural program—are designed
                            to ensure that the admission of alien workers does not adversely affect
                            the job opportunities, wages, and working conditions of American workers
                            or legal resident aliens. The H-1B visa specialty workers program is
                            intended to allow U.S. businesses to compete in a global market,
                            responding to rapid advances in technology.


Lack of Statutory Authority Limits DOL’s
Role in Verifying Foreign Labor Applications
                            The OIG reviewed DOL’s foreign labor certification programs to assess
                            the programs’ vulnerabilities. ETA has responsibility for approving
                            employers’ applications that may ultimately allow aliens to work in the
                            United States. Our review of the labor certification programs showed that
                            long-standing concerns remain the same since our last audits of the
                            permanent labor certification program and H-1B program in 1996, and of
                            the H-2A program in 1998. We continue to be concerned about the
                            perfunctory nature of DOL’s role in each of these programs.
                                    •   Permanent labor certification: Under a new ETA system called
                                        Program       Electronic    Review     Management,      employer
                                        applications would be electronically submitted and processed.
                                        While reducing the time required to process applications, it will
                                        eliminate most human screening of certification applications
                                        received, which may lead to an increase in program fraud due
                                        to fewer controls over application information.
                                    •   H-1B specialty workers: On labor condition applications for the
                                        H1-B program, employers declare they will pay foreign
                                        specialty workers appropriate wages and follow workplace
                                        guidelines. Under current law, ETA must approve the
                                        application if it is complete and free of obvious errors. Without
                                        the authority to validate information on the application, ETA’s
                                        role adds little value to the process of protecting American jobs
                                        and wages.
                                    •   H-2A seasonal and temporary agricultural workers: The H-2A
                                        certification process is ineffective in ensuring U.S. workers’
                                        jobs are protected. In addition, the division of responsibilities
                                        between DOL’s ETA and the Employment Standards
                                        Administration, for labor certification and compliance with the
                                        terms of work contracts, respectively, results in confusion and
                                        inefficiencies and prevents cohesive enforcement.



Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                      15
       Employment and                                     Foreign Labor Certification Programs
      Training Programs
                                    This report, as well as our prior reports, continues to demonstrate
                                    that the Department’s limited role in the labor certification
                                    process adds little value to the process of protecting American
                                    jobs and wages. (OA Report No. 06-03-007-03-321, issued
                                    September 30, 2003)

Man from Cameroon Found
Guilty of Immigration Fraud
                            On June 18, 2003, John Bisong Atem, owner of American Immigration
                            Agency, was found guilty of immigration and bank fraud charges. The
                            investigation revealed that in April 2001, Atem completed and filed labor
                            certifications that contained false information. In those applications, he
                            declared that he owned numerous businesses that were in fact shell
                            companies.

                            Atem also devised a scheme to steal money from those who sought his
                            services by creating counterfeit checks using their bank account
                            information. Between 1999 and 2002, Atem created and cashed
                            hundreds of these counterfeit checks, totaling more than $260,000. The
                            OIG was assisted by the Bureau of Immigration and Customs
                            Enforcement (BICE), the Secret Service, the D.C. Metropolitan Police
                            Department, and the U.S. Attorney’s Office in the District of Columbia.
                            U.S. v. Atem (District of Columbia)


Greek Foreign National
Sentenced to Nearly Six Years
in Prison on Visa Fraud Charges
                            On May 23, 2003, Evangelos Konstantakakos, owner of Immigration
                            Solutions, and his employee Albert Guzman were convicted of conspiracy
                            and visa fraud charges for filing more than 400 fraudulent visa
                            applications and foreign labor certifications. Soon after the close of the
                            reporting period, on October 2, 2003, Konstantakakos was sentenced to
                            nearly six years’ imprisonment. Since 1986 his company had processed
                            false foreign labor applications. In them, he claimed his clients were in
                            various special occupations under the H-1B program, such as performers,
                            when in fact they were not. This was a joint investigation with BICE. U.S.
                            v. Konstantakakos, et al. (E.D. New York)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                    16
       Employment and                                     Foreign Labor Certification Programs
      Training Programs


Business Owner Pleads
Guilty to Visa Fraud Charges
                            Dulce Cuco, owner of Central Migration, pled guilty on
                            April 11, 2003, to visa fraud charges for conspiring with others to forge
                            alien employment certification applications. The investigation revealed
                            that she falsely claimed to be an attorney and filed more than 900
                            applications, charging between $4,500 and $8,000 per certification. This
                            was a joint investigation with BICE. U.S. v. Cuco (D. New Jersey)


Immigration Consultant
Sentenced for Filing Fraudulent
H-1B Visa Applications
                            On June 17, 2003, Jessie Isaac, an immigration consultant, pled guilty to
                            a September 2002 RICO charge for his role in engaging in a pattern of
                            racketeering activity, which involved the filing of more than 140 fraudulent
                            H-1B visa applications and petitions. Soon after the close of the reporting
                            period, on October 3, 2003, he was sentenced to four years’
                            imprisonment, and per his plea agreement, Isaac also stipulated to a
                            RICO forfeiture of $402,000 (the proceeds from the racketeering activity).
                            Isaac collected money from aliens seeking jobs at his company in the
                            United States. However, those jobs and his companies turned out to be
                            nonexistent. If the jobs had been legitimate, they would have provided the
                            basis for the aliens to obtain temporary or permanent resident status in
                            the United States. This is a joint investigation being conducted with BICE.
                            U.S. v. Isaac (N.D. Illinois)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                     17
       Employment and                                    Trade Adjustment Assistance Program
      Training Programs

Trade Adjustment Assistance Program
                            The Trade Adjustment Assistance (TAA) program is a Federal program
                            established under the Trade Act of 1974, as amended. It provides aid to
                            workers who lose their jobs or whose hours of work and wages are
                            reduced as a result of foreign trade. The program offers training to provide
                            trade-affected workers with a reasonable expectation of employment as
                            quickly as possible. Workers may receive up to 130 weeks of approved
                            training in occupational skills, basic or remedial education, or training in
                            literacy or English as a second language.


Pennsylvania Correctly Used
$11.5 Million in Trade Adjustment
Assistance Funds
                            Based on a congressional inquiry, the OIG conducted an evaluation of the
                            status of the Commonwealth of Pennsylvania’s TAA program funding and
                            how the Commonwealth used the $11.5 million in funds that ETA
                            provided in March 2003 for TAA job training.

                            We concluded that the Commonwealth used the $11.5 million for TAA
                            expenses that occurred in FY 2003 in accordance with the cooperative
                            agreement requirements. We also confirmed TAA funding shortages back
                            to at least FY 2001. TAA funds provided to the Commonwealth were not
                            sufficient to meet the level of obligations incurred to provide training to
                            eligible participants. Although the Commonwealth’s request for TAA funds
                            was less than the obligations it made, the actual TAA funding granted
                            was even less than the requested level. ETA addressed these funding
                            shortages through National Emergency Grants authorized by WIA.
                            However, we found that the Commonwealth still had a deficit of
                            $2.6 million for FY 2002, which the Commonwealth must pay, and
                            continues to be faced with funding shortages that will have to be met with
                            additional WIA National Emergency Grants. Our evaluation did not result
                            in any recommendations. (OA Report No. 03-03-008-03-330, issued
                            September 8, 2003)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                     18
                                                              Unemployment Insurance Program
        Worker Benefits


Unemployment Insurance Program
                            Enacted more than 65 years ago as a Federal-state partnership, the
                            Unemployment Insurance (UI) program is the Department’s largest
                            income maintenance program. This multibillion-dollar program generally
                            provides income maintenance to individuals who have lost their jobs
                            through no fault of their own. While the framework of the program is
                            determined by Federal law, the benefits for individuals are dependent on
                            state law and are administered by State Workforce Agencies in 53
                            jurisdictions covering the 50 states, the District of Columbia, Puerto Rico,
                            and the U.S. Virgin Islands, under the oversight of ETA. The OIG
                            continues to conduct audits to improve the efficiency and effectiveness of
                            the program and to expand its investigative efforts to detect and
                            investigate fictitious or fraudulent employer schemes used to defraud the
                            UI program. We are also focusing on other ways, such as identity theft, by
                            which the program is being defrauded. In recent years, the program has
                            suffered losses in the millions of dollars as a result of these various types
                            of schemes. Highlighted in the following sections are some of our
                            accomplishments in this area.


ETA’s Benefit Accuracy
Measurement System Accurately
Projected Overpayments, but
More Can Be Done to Reduce Them
                            In 1987, ETA implemented the Benefit Accuracy Measurement (BAM)
                            program to monitor the accuracy of UI payments made to claimants and
                            statistically project the amount of claimant overpayments throughout the
                            country. Through 2002, the rate of overpayments has remained between
                            8% and 9%, while the total amount of overpayments continued to grow,
                            corresponding to increased benefit payments. In calendar year 2002,
                            BAM estimated $3.7 billion in overpayments.

                            The OIG audited ETA’s use of the BAM system to monitor UI
                            overpayments. The objectives of the audit were to determine whether
                            BAM accurately detected and projected overpayments, ETA used BAM
                            information to prevent overpayments, and program improvements based
                            on states’ best practices could reduce overpayments.

                            We found that as designed, BAM accurately detected and projected
                            overpayments; however, system improvements can be made to detect
                            overpayments related to unreported earnings. Moreover, ETA did not use
                            BAM information to strengthen internal controls over benefit payments,
                            costing the UI program millions of dollars every year. BAM’s projected UI
                            overpayments of about $2.5 billion in calendar year 2001 and


Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                      19
                                                              Unemployment Insurance Program
        Worker Benefits

                            $3.7 billion in calendar year 2002 are significant. Because the rate of
                            overpayments has remained essentially unchanged for the last 12 years,
                            the OIG believes that ETA needs to do more to reduce that rate.

                            We concluded that changes must be made to existing policies and
                            procedures to make overpayment prevention and detection a top priority
                            of ETA. The Department should use historical information from BAM to
                            develop and implement practices that will result in reduced
                            overpayments. For example, based on our best practices analysis of state
                            UI operations, we concluded that expediting the implementation of new-
                            hire database connectivity in 10 states, and increasing its use in another
                            eight states, could save the Unemployment Trust Fund an estimated
                            $428 million annually. This is because benefits being improperly paid to
                            recipients who start new jobs would be detected earlier in the claimant’s
                            benefit year, and benefits could be stopped before all available benefits
                            were claimed.

                            We made nine recommendations for program improvement that, once
                            implemented, should heighten awareness of the current overpayment
                            problem and reduce overpayments significantly and are summarized as
                            follows:
                                    •   Modify the system used to project overpayments related to
                                        unreported earnings issues by devising a follow-up process for
                                        paid claims and creating a formula for reporting the information
                                        learned.
                                    •   Make overpayment oversight a top priority by emphasizing
                                        payment accuracy in ETA’s performance measures and
                                        instituting additional quality control practices.
                                    •   Expedite the implementation of New Hire database
                                        connectivity in 10 states, and require eight other states to
                                        perform cross-match procedures to their state’s New Hire
                                        database at least weekly.
                            In its response to our report, ETA agreed in principle to our findings and
                            recommendations and emphasized that reducing UI overpayments is an
                            ETA priority. Moreover, ETA states that it will make reducing UI
                            overpayments a core measure for program performance. The OIG
                            believes that management actions taken during the course of the audit
                            affirmed ETA’s commitment to make overpayment reduction a top priority.
                            Also with respect to the recommendations regarding the use of New Hire
                            data, ETA’s response estimated maximum potential savings of $139
                            million. Of the report’s nine recommendations, we consider one closed
                            and the remaining eight unresolved, pending receipt of a corrective action
                            plan. (OA Report No. 22-03-009-03-315, issued September 30, 2003)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                     20
                                                             Unemployment Insurance Program
        Worker Benefits


California Man Sentenced in
Fictitious Employer Scheme
                            Clema Moore was sentenced on June 30, 2003, to 15 months in jail and
                            three years’ probation and was ordered to pay nearly $12,000 in
                            restitution. He pled guilty in April 2003 to mail fraud and aiding and
                            abetting charges for his role in a fictitious employer scheme. The
                            investigation revealed that from February 1997 to June 2002, Moore,
                            along with others, fraudulently obtained UI benefits from the State of
                            California by creating 13 fictitious companies and 17 fictitious employees.
                            The loss to the State was more than $96,000. This was a joint
                            investigation with the California Employment Development Department
                            and the U.S. Postal Inspection Service. U.S. v. Moore (E.D. California)


Defendants Sentenced in
Fictitious Employer Scheme
                            In September and October 2003, nine of 12 defendants were sentenced
                            in a fictitious employer unemployment fraud scheme involving four bogus
                            companies in Philadelphia, Pennsylvania. The nine were collectively
                            sentenced to pay a total of more than $180,000 in fines and restitution. In
                            addition, they were each sentenced from three to five years’ probation.
                            The remaining three defendants have pled guilty in this case and await
                            sentencing. All were indicted in May 2003 for their participation in the
                            scheme to defraud the Pennsylvania UI program. Their scheme caused
                            Pennsylvania to issue 263 UI checks totaling about $210,000. Of note,
                            the ringleader, Anthony Sannutti, pled guilty on July 16, 2003, to mail
                            fraud charges. Sannutti created documents containing fictitious business
                            activities, corporate officers, Social Security numbers, and employees.
                            The investigation was conducted jointly with the U.S. Postal Inspection
                            Service, the Pennsylvania Department of Labor’s Internal Audit Division,
                            and the Philadelphia Police Department. U.S. v. Sannutti, et al. (E.D.
                            Pennsylvania)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                    21
                                                             Unemployment Insurance Program
        Worker Benefits

Fraud Against UI Program by
Emerging Organized Crime Groups
                            The OIG is beginning to see a new trend in the types of UI fraud cases
                            that it encounters. During the 25 years that the OIG has investigated labor
                            racketeering and organized crime groups, the OIG has rarely encountered
                            organized crime affecting DOL programs. Organized crime entails illegal
                            activities committed by groups with a formalized structure. Over the past
                            several years, we have begun to see evidence that organized crime
                            groups are committing fraud against DOL programs.


Mexican Family Indicted
in Identity Fraud Scheme
                            On May 8, 2003, nine members of a Mexican family living in California
                            were indicted on charges of conspiracy, mail fraud, identity theft, and
                            money laundering for defrauding the State of California UI program. The
                            investigation revealed that the family opened approximately 150
                            mailboxes and established several business bank accounts to allegedly
                            launder more than $6 million dollars obtained from fraudulent UI checks.
                            This was a joint investigation with the U.S. Postal Inspection Service, the
                            Social Security Administration OIG, BICE, the California Employment
                            Development Department, the California Highway Patrol, the California
                            Department of Motor Vehicles, and Fresno County’s Sheriff’s Department.


Thirteen Indicted in
Stolen Identities Scheme
                            Thirteen members of a Mexican nontraditional organized crime group
                            were indicted on May 8, 2003, on charges of conspiracy, mail fraud,
                            identity theft, and money laundering in connection with more than
                            $2.8 million in fraudulent UI claims. The investigation revealed that they
                            defrauded the California, Washington, Nevada, and Arizona
                            Unemployment Insurance programs through the use of at least 3,000
                            stolen identities obtained from payroll-servicing companies. This was a
                            joint investigation with the U.S. Postal Inspection Service; the Social
                            Security Administration OIG; BICE; the U.S. Marshals Service; the
                            Employment Development Departments of California, Washington, and
                            Nevada; the Fresno, Reedley, and Sanger Police Departments; and the
                            Fresno County Sheriff’s Department.




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                    22
                                              Federal Employees’ Compensation Act Program
       Worker Benefits


Federal Employees’ Compensation Act Program
                            The Employment Standards Administration’s (ESA’s) Office of Workers’
                            Compensation Programs (OWCP) administers the Federal Employees’
                            Compensation Act (FECA) program. This program provides wage
                            replacement benefits, medical treatment, vocational rehabilitation, and
                            other benefits to certain workers who experience work-related injuries or
                            occupational diseases and their dependents.

                            In addition to providing audit oversight of the program, the OIG also
                            investigates fraud against the program. Claimant fraud involves the
                            concealment or false reporting of employment and income by an
                            individual who continues to receive program benefits or services. In
                            the FECA program alone, more than $2.3 billion in medical and
                            death benefits and wage loss compensation was paid from July 1, 2002,
                            to June 30, 2003, with more than half of those benefits paid to injured
                            employees of the U.S. Postal Service, the Department of the Navy, and
                            the Department of the Army. The OIG continues to work joint cases with
                            other Federal investigative agencies and advises them on how to conduct
                            FECA investigations more efficiently and effectively. This has been
                            especially true, most recently, with Department of Defense criminal
                            investigative units from the U.S. Army and Navy. It is important to note that
                            the removal of a single fraudulent claimant from Federal benefit rolls
                            creates, on average, a $300,000 to $500,000 savings for the government.
                            In this section, we highlight a case illustrative of our work in this area.


Defendant Sentenced in
California to Pay Nearly
$175,000 in Restitution
                            Martin Fernandez-Lopez, a former postal worker, was sentenced on May
                            28, 2003, to five years’ probation and was ordered to pay nearly $175,000
                            in restitution. He pled guilty in February 2003 to making false statements
                            to obtain Federal workers’ compensation benefits. The investigation found
                            that he did not report his work as a manager of two tree maintenance
                            companies while he collected benefits. This was a joint investigation with
                            the U.S. Postal Inspection Service. U.S. v. Fernandez-Lopez (E.D.
                            California)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                     23
                                                                                  Davis-Bacon Act
       Worker Benefits


Davis-Bacon Act
                            The Davis-Bacon Act and related acts require the payment of prevailing
                            wage rates and fringe benefits on federally financed or assisted
                            construction. The OIG selectively focuses on investigating violations by
                            contractors engaged in Federal construction projects who submit falsified
                            certified payroll records.


Contractor Loses More Than
$7.8 Million When Contracts Default
                            On July 22, 2003, Inder Jit and Ashok Chhibba, the owners of JADLA
                            Contractors, pled guilty to money laundering charges and agreed to forfeit
                            $1.5 million. JADLA, a nonunion paint and tile contractor with the
                            New York City Housing Authority (NYCHA), was awarded approximately
                            $10 million in contracts with NYCHA for painting and tile jobs to be
                            performed in public housing projects in New York City. As a result of the
                            investigation, NYCHA found JADLA to be an unqualified bidder and
                            canceled $7.8 million in contracts.

                            The investigation found that JADLA used various payroll and tax schemes
                            to pay its workers far below the prevailing wage that must be paid under
                            federally funded contracts. This investigation was conducted with the IRS
                            Asset Forfeiture Task Force and the New York City Housing Authority
                            Inspector General’s Office. U.S. v. Jit, U.S. v. Chhibba (E.D. New York)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                   24
  Worker Safety, Health,                                     Occupational Safety and Health Act
  and Workplace Rights

Occupational Safety and Health Act
                            The Occupational Safety and Health Administration (OSHA) was created
                            in 1970 to carry out the Occupational Safety and Health Act (OSH Act),
                            which declared a national policy of ensuring safe and healthful working
                            conditions for employees.


OSHA’s Handling of Immigrant
Workplace Fatalities Requires Changes
                            A congressional request led the OIG to evaluate OSHA’s policies and
                            procedures regarding the prevention and investigation of immigrant
                            workplace fatalities. We found that OSHA’s inspection priorities, reporting
                            requirements, and fatality investigations did not distinguish between
                            immigrant and nonimmigrant workers when investigating a workplace
                            fatality. OSHA conducts investigations of immigrant fatalities in the same
                            manner as other investigations. However, OSHA has made efforts to
                            specifically address immigrant fatalities. Among them are forming a task
                            force to determine what additional activities are needed to improve the
                            training, education, and information used to reach Hispanic/Latino
                            workers, their families, and their employers, and improve the safety and
                            health of their workplaces; working with the National Institute for
                            Occupational Safety and Health and the Mexican consulates; and
                            pursuing strategic partnerships and alliances with Hispanic/Latino groups.

                            We recommended that OSHA take several steps to improve how it
                            prevents workplace fatalities and manages workplace fatality
                            investigations. These steps include:
                                    •   increasing the second-language capability of OSHA
                                        compliance staff to communicate effectively with non-English-
                                        speaking workers;
                                    •   continuing to translate essential OSHA documents; and
                                    •   developing a process for identifying which languages and
                                        literacy levels are needed.
                            In addition, OIG recommended that OSHA examine the deterrent effect of
                            raising civil and criminal fines, increasing from a misdemeanor to a felony
                            the criminal charges under Section 17(e) of the OSH Act, expanding
                            Section 17(e) to cover employers whose willful violations result in serious
                            physical harm, and allowing prosecutors to seek restitution for victims.

                            OSHA generally agreed with our recommendations. In response to our
                            recommendation on evaluating the effectiveness of penalties in deterring
                            willful violations that result in death or serious physical harm, OSHA
                            stated that it “will consider this recommendation after discussing this with



Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                     25
  Worker Safety, Health,                                     Occupational Safety and Health Act
  and Workplace Rights

                            other federal agencies and stakeholders as to the impact of changes to
                            the criminal penalty provisions of the OSH Act.” (OA Report No. 21-03-
                            023-10-001, issued September 30, 2003)


Contractor Pleads Guilty
to Manslaughter Charges
                            On September 30, 2003, Philip Minucci, owner of Tri State Scaffold and
                            Equipment Supplies, Inc., pled guilty to manslaughter in the second
                            degree in connection with the deaths of five undocumented construction
                            workers and the serious injuries of four others in a scaffolding collapse.
                            The investigation found that Minucci, who is not a trained engineer,
                            designed and constructed the 13-story scaffold even though OSHA
                            regulations and New York City’s building code requires that a licensed
                            engineer or architect design a scaffold of this size.

                            This investigation was conducted jointly with OSHA, the U.S. Attorney’s
                            Office for the Southern District of New York, the District Attorney’s Office,
                            the New York City Department of Investigation, and the New York City
                            Department of Buildings. U.S. v. Minucci (S.D. New York)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                      26
           Departmental                                           Information Technology Audits
           Management

Information Technology Audits
                            The Department currently operates 82 sensitive systems comprising
                            major applications, general support systems, and mission-critical systems.
                            DOL relies on these critical information systems to monitor and analyze
                            the nation’s labor market and economic activities, manage workforce
                            services, and protect and compensate American workers. During this
                            reporting period, the OIG continued to assist the Department in its efforts
                            to enhance computer security controls.

Computer Security Audits Cite Need to
Improve Controls and Contingency Planning
                            The OIG audited the information security program and practices of
                            several DOL agencies during this reporting period. We identified positive
                            security observations but also reported several high-risk control findings
                            that needed corrective action. The information technology systems we
                            reviewed and our results follow:
                                    •   The Mine Safety and Health Administration’s Imaging
                                        Management System is used to approve and certify mining
                                        products for underground mines and investigate equipment
                                        failure that results in injury or death to miners. We found that
                                        the agency had not performed a risk assessment on this
                                        system.
                                    •   The Veterans’ Employment and Training Service’s Uniformed
                                        Services Employment and Re-Employment Rights Act
                                        Information Management System (UIMS) is used to help
                                        veterans and others return to their civilian jobs after military
                                        service or training. We found that this system lacked a
                                        contingency plan containing specific information regarding the
                                        recovery of UIMS data.
                                    •   ETA’s Foreign Labor Certification System allows employers to
                                        file foreign labor certifications. We found that its contingency
                                        plan had not been tested.
                                    •   The Bureau of Labor Statistics’ Current Population Survey is
                                        used to compile statistics on the labor force. We found that the
                                        system’s Continuity of Operations plan was incomplete and
                                        untested.
                            We recommended that each agency take appropriate corrective action
                            including updating security control plans, ensuring that employees and
                            other critical parties are informed and trained in their data recovery roles
                            and responsibilities, and testing contingency plans on a regular basis. In
                            their responses, the agencies agreed with most of our security control
                            findings. In several cases, we found that agencies had already taken
                            corrective actions prior to the issuance of our report. (OA Report Nos. 23-
                            03-012-02-001, 23-03-011-06-001, 23-03-010-03-001, and 23-03-013-11-
                            001, issued September 22, 2003)
Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                     27
           Departmental                                        Employee Integrity Investigations
           Management


DOL Employee Found Guilty of
Child Pornography Charges
                            Brian Reilly, a former Bureau of Labor Statistics employee, was found
                            guilty on June 3, 2003, of five counts of possessing obscene material.
                            The investigation found that from June 1999 through March 2001, Reilly
                            used his government computer to access and download obscene images
                            of children off the Internet. He was found to have repeatedly accessed
                            over the three-year period web sites containing sexually explicit images of
                            children and to have saved some of these images to his local disk drives.
                            U.S. v. Reilly (S.D. New York)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                    28
     Labor Racketeering

                            The OIG at the Department of Labor is unique among inspectors general
                            because it has an “external” program function to conduct criminal
                            investigations to combat the influence of labor racketeering and organized
                            crime in the nation’s labor unions. Labor racketeering is the infiltration,
                            domination, and/or use of a union or employee benefit plan for personal
                            benefit by illegal, violent, or fraudulent means. Organized crime is defined
                            as activities carried out by groups with a formalized structure whose
                            primary objective is to obtain money through illegal activities. Traditionally,
                            organized crime has been carried out by La Cosa Nostra (LCN) groups,
                            also known as the “mob” or the “Mafia.” However, new groups are
                            emerging and organizing. For example, organized crime groups now
                            include Asian, Russian, Eastern European, Nigerian, and West African
                            groups.

                            While the average American citizen may not be fully aware of the labor
                            racketeering activities carried out by organized crime groups, he or she is
                            directly affected by them. Because organized crime’s exercise of market
                            power is usually concealed from public view, millions of consumers
                            unknowingly pay what amounts to a tax or surcharge on a wide range of
                            goods and services. In addition, by controlling a key union local,
                            organized crime can control the pricing in an entire industry. Moreover, the
                            public also suffers when organized crime orchestrates illicit strikes and
                            work slowdowns or resorts to violence to maintain its operation of labor
                            rackets.

                            Over the past two decades, the OIG has conducted extensive criminal
                            investigations of labor racketeering. Traditionally, organized crime has
                            been involved in loan sharking, gambling, benefit plan fraud, violence
                            against union members, embezzlement, and extortion. OIG investigations
                            have uncovered millions of dollars of workers’ dues and benefit monies
                            that have been siphoned off by organized crime through embezzlement or
                            more sophisticated devices, such as fraudulent loans or excessive fees
                            paid to corrupt union and benefit plan service providers. Our
                            investigations continue to identify complex financial and investment
                            schemes used to defraud pension assets, resulting in millions of dollars in
                            losses to plan participants.

                            As labor racketeering evolves and moves beyond its traditional activities,
                            the OIG is expanding its investigative program to address these new
                            areas. The following cases are illustrative of our work in helping to
                            eradicate both traditional and nontraditional labor racketeering in the
                            nation’s labor unions, employee benefit plans, and workplaces.




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                       29
                                                                     Internal Union Investigations
     Labor Racketeering


Internal Union Investigations
                            Our internal union cases often involve instances of corruption, such as
                            union officers’ abuse of their positions of authority to embezzle money
                            from union accounts for their own benefit. Investigations in this area also
                            focus on situations in which organized crime groups control or influence a
                            labor organization, frequently in order to exercise influence in an industry
                            for corrupt purposes or to operate traditional vice schemes such as drug
                            dealing and theft. Following are examples illustrative of our work in this
                            area.


Chicago Family Members
Indicted for Contract and
Workers’ Compensation Fraud
                            An OIG labor racketeering investigation of an organized crime–associated
                            union official, whose family members control an independent Chicago
                            liquor distributors union, led to the indictment of a Chicago mother and
                            son, along with five business associates, in September 2003. They were
                            indicted for alleged fraud, money laundering, and racketeering
                            conspiracy. Allegedly, between 1990 and 2002, the conspirators were
                            awarded government contracts in excess of $100 million based on
                            fraudulently obtained women- and minority-owned business status. In
                            addition, they were indicted for allegedly not paying in excess of
                            $3 million in workers’ compensation insurance premiums between 1989
                            and 2001.


Mob Associates Plead Guilty to
Extortion and Gambling Charges
                            Julius Nasso, a Gambino associate who conspired to extort actor Steven
                            Seagal, pled guilty to extortion charges on August 13, 2003. Nasso’s
                            brother, Vincent, a former pharmaceutical service provider to MILA, the
                            International Longshoremen’s Association’s (ILA’s) health and welfare
                            fund, pled guilty to wire fraud charges. Vincent acquired the MILA
                            contract after making payoffs to members of organized crime.

                            In a related case, in August 2003, Gambino associates Jerome Orsino
                            and Anna Eylenkrig pled guilty to running an illegal gambling business.
                            These associates are among the 17 defendants included in a previously
                            filed RICO indictment that involved Peter Gotti, the acting boss of the
                            Gambino LCN family, who was found guilty this past March. This
                            investigation was conducted by a task force comprising the OIG, the U.S.
                            Attorney’s Office of the Eastern District of New York, the FBI, the
                            Waterfront Commission of New York Harbor, the New York State


Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                     30
                                                                    Internal Union Investigations
     Labor Racketeering

                            Organized Crime Task Force, the Richmond County District Attorney’s
                            Office, and the New York City Police Department. U.S. v. Nasso (E.D.
                            New York)


Mobster Sentenced to Prison
and Ordered to Pay More
Than $800,000 in Restitution
                            On July 10, 2003, Joseph Lore, a reputed member of the Genovese
                            Organized Crime Family and a former hiring agent for the International
                            Terminal Operating Company (now called United Terminals, Inc.), was
                            sentenced to nearly six months’ imprisonment and three years’ probation
                            and was ordered to pay more than $820,000 in restitution. Lore was
                            convicted of embezzling more than $900,000 from ILA Local 1588, mostly
                            through a salary diversion scheme. Even though he was barred from any
                            involvement with Local 1588 because of an earlier civil RICO action, Lore,
                            through his control of the waterfront, selected four Local 1588 officials.
                            These officials provided little if any services to Local 1588 but received
                            salaries totaling more than $1.5 million and gave half of all their
                            paychecks to Lore.

                            In addition, on July 17, 2003, Denise Bohn, a former ILA Local 1588
                            bookkeeper, was sentenced to more than three years’ imprisonment and
                            three years’ probation and ordered to pay more than $850,000 in
                            restitution for converting in excess of $750,000 of union assets for her
                            own use. This was an investigation with the New Jersey State Police.
                            U.S. v. Lore, et al. (D. New Jersey)


Two Mob Associates
Sentenced for Extortion
                            On August 1, 2003, Anthony Russo, a Gambino LCN associate, was
                            sentenced to 30 months’ imprisonment and three years of supervised
                            release and was fined $6,000. In addition, on June 13, 2003, Robert
                            Arteca was sentenced to 33 months’ imprisonment to be followed by
                            three years of supervised release. The two previously pled guilty to
                            conspiring to commit extortion. The investigation found that between
                            December 2000 and April 2002, Arteca and Russo conspired to extort
                            more than $10,000 from the owners and operators of a clothing
                            manufacturer in New York City in order to gain labor peace. This was a
                            joint effort with the FBI, the New York City Police Department, and the
                            Bronx County District Attorney’s Office. U.S. v. Russo, U.S. v. Arteca,
                            (S.D. New York)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                   31
                                                               Labor-Management Investigations
     Labor Racketeering


Labor-Management Investigations
                            Labor-management relations cases involve improper relationships
                            between management and union officials. Typical labor-management
                            cases range from collusion between representatives of management and
                            corrupt union officials to the use of the threat of “labor problems” to extort
                            money or benefits from employers.


Unlawful Payments to Union
Official Leads to Guilty Pleas
                            Martin Vitale, former CEO and chairman of Twin County Grocers and the
                            owner of many Foodtown Supermarkets, pled guilty on
                            September 25, 2003, to embezzling funds and conspiring to make illegal
                            payments to a union official. In addition, Marvin Reichenstein, whose
                            company provided Twin County advertising services, was sentenced in
                            September 2003 to two years’ probation after pleading guilty to
                            conspiracy charges. The investigation found that for more than six years,
                            Reichenstein conspired with Vitale to have Twin County pay $2.6 million
                            for services that were never performed. This money was then passed
                            back through to Vitale’s company and was used to make unlawful labor
                            payments to union officials. This investigation was conducted jointly with
                            the U.S. Postal Service, the IRS, and the FBI. U.S. v. Vitale, U.S. v.
                            Reichenstein (D. New Jersey)


Three Contractors Plead Guilty to Making
Prohibited Payments to a Union
                            In April and May 2003, Michigan companies Crudo Brothers, Inc., Nelson
                            Mill Company, and Harris Homes Carpentry, pled guilty to making a
                            prohibited payment to a union official. The investigation found that the
                            companies improperly delivered building materials, for which they were
                            not reimbursed, to Michigan Regional Council of Carpenters (MRCC)
                            officials valued at nearly $116,000 for use in building a home of an MRCC
                            official. Previously, 12 business agents of MRCC were indicted for
                            allegedly doing the actual construction work of building the home during
                            their normal work hours, which is also prohibited. This is a joint effort with
                            the FBI. In addition, DOL’s Employee Benefits Security Administration
                            (EBSA) participated in this investigation. U.S. v. Crudo Brothers, Inc.,
                            U.S. v. Nelson Mill Company, U.S. v. Harris Homes Carpentry (E .D.
                            Michigan)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                       32
                                                                      Benefit Plan Investigations
     Labor Racketeering


Benefit Plan Investigations
                            In addition to investigating corruption involving general union funds, the
                            OIG is responsible for combating corruption involving the monies in union-
                            sponsored benefit plans. These pension plans and health and welfare
                            benefit plans comprise hundreds of billions of dollars in assets. Our
                            investigations have shown that these vast sums of money remain
                            vulnerable to corrupt union officials and organized crime influence.
                            Service providers to union benefit plans continue to be a strong focus of
                            the OIG’s investigations, particularly those servicing pension plans. The
                            cases summarized in this section include examples of both health plan
                            and pension plan corruption.


Union State Director Sentenced to
Five Years’ Imprisonment
                            On September 30, 2003, Gary Rodrigues, former state director of the
                            United Public Workers Union (UPW), was sentenced to more than five
                            years’ imprisonment and three years’ supervised release and was
                            ordered to pay more than $428,000 in restitution and fines. In November
                            2002, Rodrigues and Robin Sabatini, his daughter, were found guilty of
                            95 criminal counts, most of which involved mail fraud and money
                            laundering. Rodrigues and Sabatini devised schemes to defraud UPW
                            and its members of money paid out of UPW accounts for dental benefits
                            and to defraud a UPW health benefit program. The premiums for the
                            dental benefit were inflated to cover consulting fees paid to Sabatini. In
                            addition, Rodrigues was found guilty of embezzling union assets and
                            receiving kickbacks in connection with a union benefit plan. The
                            embezzlement charges resulted from the inflated premiums. Rodrigues
                            received more than $100,000 from an insurance agent who provided the
                            life insurance benefits for UPW members. Both Rodrigues and Sabatini
                            laundered the embezzled proceeds from the health benefit program,
                            which exceeded $300,000. The investigation was conducted with the IRS
                            Criminal Investigations Division, the FBI, and the Hawaii Police
                            Department. U.S. v. Rodrigues, U.S. v. Sabatini (D. Hawaii)


Hawaii Businessman
Indicted in Benefit Plan Fraud
                            On July 24, 2003, a Hawaii businessman who controlled Pacific Group
                            Medical Association (PGMA) was indicted on 16 counts of insurance
                            fraud. He allegedly manipulated PGMA’s payment of claims to make the
                            State of Hawaii and others believe that PGMA was sound and successful
                            when in fact PGMA was not. The investigation found that from 1994 to
                            1997, the PGMA plan guaranteed health coverage to as many as 26,000


Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                   33
                                                                       Benefit Plan Investigations
     Labor Racketeering

                            Hawaii residents, including members of the United Public Workers Union.
                            PGMA collapsed in 1997, leaving local clinics and hospitals burdened
                            with unpaid claims in excess of $17 million. This was a joint investigation
                            with EBSA, the FBI, and the IRS.


Teamsters Union Local President
Pleads Guilty, Others Sentenced
in Extortion Scheme
                            On April 25, 2003, George Cashman, president of Teamsters Union Local
                            25 and trustee of the local’s health plan and the New England Teamsters
                            and Trucking Industry Pension Fund, pled guilty to charges of Hobbs Act
                            extortion, violating the Taft-Hartley Act, conspiracy to steal and embezzle
                            from an employee benefit program, filing false documents under the
                            Employee Retirement Income Security Act, and committing mail fraud. In
                            addition, on July 31, 2003, Thomas DiSilva, an officer of DiSilva
                            Transportation and Hutchinson Industries, was sentenced to one year of
                            home confinement and five years’ probation and was fined $50,000.

                            Cashman and DiSilva conspired to launder the proceeds of a $100,000
                            extortion payment from representatives of Cardinal Health, an Ohio-
                            based pharmaceutical corporation. This payment was made in connection
                            with the settlement of a pension fund liability that Cardinal owed to the
                            pension fund following a lengthy strike at Cardinal’s facility in
                            Massachusetts.

                            In a related case, William Carnes, vice president of Local 25 and trustee
                            of the local’s health plan, was sentenced on August 7, 2003, to five years’
                            probation and was ordered to pay a $5,000 fine. He was found to have
                            submitted false documents that caused the Teamsters Local 25 health
                            plan to pay health care claims for ineligible members of Teamsters Local
                            25 and their dependents. The investigation found that individuals were
                            placed on the payrolls of DiSilva Transportation and Hutchinson
                            Industries despite not being employed by them. This allowed them to
                            receive coverage from the local’s health benefit plan to which they were
                            not entitled. This arrangement caused the local’s health fund to pay in
                            excess of $80,000. This case is being worked with the assistance of
                            EBSA, the Drug Enforcement Administration, the Boston Police Major
                            Case Unit, and the Everett Police Department. U.S. v. Cashman, et al.
                            (D. Massachusetts)




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                    34
                                                                      Benefit Plan Investigations
     Labor Racketeering


Three Indicted in
$10 Million Land Deal
                            Three defendants were indicted on September 5, 2003, on charges
                            related to a $10 million land purchase by the pension fund of the
                            Northwest District Council of Carpenters (NWDCC). Those indicted were
                            an attorney for the Indiana Regional Council of Carpenters (IRCC), the
                            secretary-treasurer of the IRCC (a former trustee of the NWDCC pension
                            fund), and a real estate broker. The investigation found that in 1999, the
                            NWDCC pension fund purchased 55 acres of undeveloped land in
                            Indiana for $10 million. The real estate broker and his partner received a
                            $600,000 commission from the sale and allegedly made an illegal
                            payment of $200,000 to the IRCC attorney. The salesman and the
                            attorney then allegedly paid out $65,000 to the former trustee through the
                            establishment of a bogus company. The three are charged with
                            conspiring to violate the law that prohibits the offer, acceptance, or
                            solicitation of payments in connection with union pension funds. This is a
                            joint effort with DOL’s Employee Benefits Security Administration.




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                   35
         Legislative
      Recommendations

Legislative Recommendations
                            The Inspector General Act requires the OIG to review existing or
                            proposed legislation and regulations and to make recommendations in the
                            Semiannual Report concerning their impact on the economy and
                            efficiency of the Department’s programs and on the prevention of fraud
                            and abuse.


Enhance the WIA Program
Through Reauthorization
                            The reauthorization of the Workforce Investment Act (WIA) provides an
                            opportunity to revise WIA programs to better achieve their goals. Based
                            on our audit work, the OIG recommends the following:
                                    •   Improve state and local reporting of WIA obligations. A
                                        disagreement between ETA and the states about the level of
                                        funds available to states has drawn attention to the way WIA
                                        obligations and expenditures are reported. The OIG’s work in
                                        nine states and Puerto Rico showed that obligations provide a
                                        more useful measure for assessing states’ WIA funding status
                                        if obligations accurately reflect legally committed funds and are
                                        consistently reported.
                                    •   Modify WIA to encourage the participation of training
                                        providers. WIA participants use individual training accounts to
                                        obtain services from approved eligible training providers.
                                        However, burdensome performance reporting and eligibility
                                        requirements for these training providers have made some
                                        potential providers unwilling to serve WIA participants. The
                                        Administration’s legislative proposal for WIA addresses this
                                        issue.
                                    •   Support amendments to resolve uncertainty about the release
                                        of WIA participants’ personally identifying information for WIA
                                        reporting purposes. Some training providers are hesitant to
                                        disclose participant data to states for fear of violating the
                                        Family Education Rights and Privacy Act.
                                    •   Include standard definitions that allow for consistent measure
                                        of performance across the states. The wide latitude states
                                        have to define key terms has resulted in a lack of consistency
                                        in states’ reporting against performance measures. This
                                        performance information affects the level of incentive funds the
                                        states will receive in future years.




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                      36
         Legislative
      Recommendations


Allow DOL Access to Wage Records
                            To reduce overpayments in employee benefit programs and to better
                            evaluate the performance of DOL training programs, the Department and
                            the OIG need legislative authority to easily and expeditiously access state
                            Unemployment Insurance wage records, Social Security Administration
                            (SSA) wage records, and wage information from the National Directory of
                            New Hires, which is maintained by the Department of Health and Human
                            Services.

                            Improved access to these records would help to identify overpayments in
                            benefit programs such as UI and the Federal Employees’ Compensation
                            Act (FECA) program. For example, DOL could perform an automated
                            cross match of SSA wage records against FECA benefits records. This
                            would allow the Department to identify and remove from the FECA rolls
                            claimants who fraudulently conceal income they earn while receiving
                            disability compensation. Access to SSA and UI data would also allow the
                            Department to measure the long-term impact of employment and training
                            services on job retention and earnings. Outcome information of this type
                            for program participants is otherwise difficult to obtain.


Provide Authority to Ensure the Integrity of
the Foreign Labor Certification Process
                            If DOL is to have a role in the H-1B labor certification process, it must
                            have the statutory authority to ensure the integrity of that process,
                            including the ability to verify the accuracy of information provided on labor
                            condition applications. Currently, DOL is statutorily required to certify
                            such applications unless it determines them to be “incomplete or
                            obviously inaccurate.” Our concern about the Department’s limited ability
                            to improve the integrity of the certification process is heightened by the
                            results of OIG investigations that continue to detect fraud in the H-1B
                            program.


Amend the Employee Retirement
Income Security Act of 1974 and
Related Criminal Penalties
                            Legislative changes to the Employee Retirement Income Security Act
                            (ERISA) and criminal penalties for ERISA violations would enhance the
                            protection of assets in pension plans. To this end, the OIG recommends
                            the following:
                                    •   Repeal ERISA’s limited-scope audit exemption. This provision
                                        excludes pension plan assets invested in banks, savings and

Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                      37
         Legislative
      Recommendations

                                        loans, insurance companies, and the like from audits of
                                        employee benefit plans. Hence, independent public
                                        accountants auditing pension plans cannot render an opinion
                                        on the plans’ financial statements in accordance with
                                        professional auditing standards. These “no opinion” audits
                                        provide no substantive assurance of asset integrity to plan
                                        participants or the Department.
                                    •   Require direct reporting of ERISA violations to the
                                        Department. Under current law, a pension plan auditor who
                                        finds a potential ERISA violation is not responsible for
                                        reporting it to DOL. We recommend that plan administrators or
                                        auditors be required to report potential ERISA violations
                                        directly to the Department. This would ensure the timely
                                        reporting of violations and more actively involve accountants in
                                        safeguarding pension assets, providing a first line of defense
                                        against abuse of workers’ pension plans.
                                    •   Strengthen criminal penalties in Title 18 of the U.S. Code.
                                        Three sections of Title 18 serve as the primary criminal
                                        enforcement tools for protecting pension plans covered by
                                        ERISA. Embezzlement or theft from employee pension and
                                        welfare plans is prohibited by Section 664, making false
                                        statements in documents required by ERISA is prohibited by
                                        Section 1027, and giving or accepting bribes related to the
                                        operation of ERISA-covered plans is outlawed by Section
                                        1954. Sections 664 and 1027 subject violators to five years’
                                        imprisonment while Section 1954 calls for up to three years.
                                        We believe that raising the maximum penalties to 10 years for
                                        all three violations would serve as a greater deterrent and
                                        further protect employee pension plans.

Improve the Integrity
of the FECA Program
                            The OIG supports legislation that would improve the integrity of the
                            Federal Employees’ Compensation Act program. Implementing the
                            following changes would result in significant savings for the Federal
                            government:
                                    •   Move claimants into a form of retirement after a certain age if
                                        they are still injured.
                                    •   Return a three-day waiting period to the beginning of the 45-
                                        day continuation-of-pay process to require employees to use
                                        accrued sick leave or leave without pay before their benefits
                                        begin.
                                    •   Grant authority to DOL to access Social Security wage records
                                        in order to identify claimants defrauding the program.




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                     38
              Appendix


Appendix
Requirements Under the Inspector General Act of 1978

Section 4(a)(2) - Review of Legislation and Regulation .............................................................36

Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies .............................................All

Section 5(a)(2) - Recommendations with Respect to Significant
Problems, Abuses, and Deficiencies ........................................................................................All

Section 5(a)(3) - Prior Significant Recommendations on Which
Corrective Action Has Not Been Completed..............................................................................46

Section 5(a)(4) - Matters Referred to Prosecutive Authorities......................................................2

Section 5(a)(5) and Section 6(b)(2) - Summary of Instances Where
Information Was Refused..................................................................................................... None

Section 5(a)(6) - List of Audit Reports ......................................................................................43

Section 5(a)(7) - Summary of Significant Reports ....................................................................All

Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs................41

Section 5(a)(9) - Statistical Tables on Management Decisions on
Recommendations That Funds Be Put to Better Use ................................................................40

Section 5(a)(10) - Summary of Each Audit Report over Six Months Old for
Which No Management Decision Has Been Made....................................................................46

Section 5(a)(11) - Description and Explanation for Any Significant Revised
Management Decision ......................................................................................................... None

Section 5(a)(12) - Information on Any Significant Management Decisions with
Which the Inspector General Disagrees............................................................................... None



Requirements Under Senate Report No. 96-829

Resolution of Audits ..................................................................................................................43

Money Owed to the Department ...............................................................................................42




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                                                     39
                                                                    Funds Put to Better Use
              Appendix



                                      Agreed to by DOL
                                                                     Number of   Dollar Value
                                                                      Reports     ($ millions)
For which no management decision had been made as of the
commencement of the reporting period                                     0                0.0
Issued during the reporting period                                       1              428.0
Subtotal                                                                 1              428.0
For which management decision was made during the reporting
period:                                                                  0                0.0
  •    Dollar value of recommendations that were agreed to by
       management                                                                         0.0
  •    Dollar value of recommendations that were not agreed to by
       management                                                                         0.0
  For which no management decision had been made as of the
  end of the reporting period                                            1              428.0



                                     Implemented by DOL
                                                                     Number of   Dollar Value
                                                                      Reports     ($ millions)
For which final action had not been taken as of the commencement
of the reporting period                                                  6               12.8
For which management or appeal decisions were made during the
reporting period                                                         0                0.0
         Subtotals                                                       6               12.8
For which final action was taken during the reporting period:                             0.0
  •    Dollar value of recommendations that were actually
       completed                                                                          0.0
  •    Dollar value of recommendations that management has
       subsequently concluded should not or could not be                                  0.0
       implemented or completed
For which no final action had been taken by the end of the period        6               12.8




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                           40
                                                                         Resolution Activity Related to
               Appendix                                        Inspector General Issued Audit Reports


                                                Questioned Costs
                                                                                        Number of           Disallowed
                                                                                          Reports                Costs
                                                                                                            ($ millions)
For which no management decision had been made as of the
commencement of the reporting period (as adjusted)                                                 28               91.7


Issued during the reporting period                                                                 18                 5.2
          Subtotal                                                                                 46               96.9
For which a management decision was made during the reporting
period
     •   Dollar value of disallowed costs                                                                             2.6

     •   Dollar value of costs not disallowed                                                                         4.7
For which no management decision had been made as of the end
of the reporting period                                                                            35               89.6
For which no management decision has been made within six
months of issuance                                                                                 17               84.4



                                                 Disallowed Costs
                                                                                        Number of           Disallowed
                                                                                          Reports                Costs
                                                                                                            ($ millions)
For which final action had not been taken as of the commencement
of the reporting period (as adjusted)*                                                             59              146.1
For which management or appeal decisions were made during the
reporting period                                                                                   10                 5.4
         Subtotal                                                                                  69              151.5
For which final action was taken during the reporting period**
     •   Dollar value of disallowed costs that were recovered                                                         3.9

     •   Dollar value of disallowed costs that were written off by                                                    0.0
         management
Dollar value of disallowed costs that entered appeal status                                                           3.8
For which no final action had been taken by the end of the
reporting period                                                                                   62              143.8
*         Does not include $15.2 million of disallowed costs that are under appeal.
**        Partial recovery/write-offs are reported in the period in which they occur. Therefore, many audit reports will
          remain open awaiting final recoveries/write-offs to be recorded.


Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                                      41
                                                       Delinquent Debts Owed to DOL
               Appendix
                                                  (As of September 30, 2003 – $ in millions)



                                     Accounts        Accounts      Accounts
                  Agency/Program    Receivable      Receivable    Receivable
                                       Current      Delinquent         Total

                  BLS                       0.0            0.1            0.1
                  EBSA                      0.2            7.1            7.3

                  Black Lung              34.5             3.1           37.6
                  FECA                    22.9            21.4           44.3

                  Back Wage                 4.5           11.9           16.4

                  Longshore                0.0             2.8            2.8
                  CMP                      1.5             6.4            7.9
                  ETA                      1.3             3.7            5.0
                  MSHA                     1.0            19.9           20.9
                  OSHA                    10.1            47.2           57.3
                  Total                   76.0           123.6          199.6



Note: These figures are provided by DOL agencies and are unaudited and may represent
estimates. Amounts due to the Unemployment Trust Fund (interagency receivables, state
unemployment taxes and benefit overpayments) are not included. Amounts due from other
Federal agencies for FECA workers’ compensation benefits paid are not included.




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                         42
                                                            Final Audit Reports Issued by the OIG
                      Appendix

Program Name                                      Date          Report            Number of      Questioned   Funds Put
Name of Report                                   Issued         Number           Nonmonetary       Costs       to Better
                                                                               Recommendations      ($)           Use
                                                                                                                  ($)

                                                   Employment and Training
Veterans’ Employment and Training Service
GISRA: Uniformed Services Employment and         09/22/03   23-03-012-02-001         29
Reemployment Rights Act Information
Management System

Evaluation of Grant Closeout Practices Applied
to JTPA Grants Awarded to:
     State of Texas                              05/05/03   04-03-003-03-340
     State of Pennsylvania                       05/05/03   04-03-013-03-340
     State of New York                           05/05/03   04-03-014-03-340
     Commonwealth of Kentucky                    05/05/03   04-03-015-03-340
     State of Hawaii                             05/05/03   04-03-016-03-340
     State of Iowa                               05/05/03   04-03-018-03-340
     State of California                         05/05/03   04-03-019-03-340
     Commonwealth of Puerto Rico                 05/05/03   04-03-020-03-340
     State of Ohio                               05/06/03   04-03-021-03-340


Seasonal Farmworkers Program
Rural Missouri, Inc.                             09/08/03   05-03-004-03-365          3            26,116
Transition Resources Corporation–Indiana         09/08/03   21-03-001-03-365          3             4,595
Florida Department of Education                  05/06/03   21-03-011-03-365          1              713
Proteus Inc. Performance Audit                   09/05/03   21-03-013-03-365          4            34,281
Motivation, Education and Training, Inc.         08/14/03   21-03-014-03-365
Motivation, Education and Training, Inc.         08/14/03   21-03-015-03-365
Telamon Corporation–North Carolina               08/13/03   21-03-016-03-365
Telamon Corporation–Georgia                      09/30/03   21-03-018-03-365          1            2,222
Telamon Corporation–Delaware                     09/30/03   21-03-019-03-365          1             684

Job Corps Program
Turner Job Corps Center                          08/07/03   03-03-004-03-370          9           645,945


Welfare-to-Work Program
Single Audit: Catholic Community Services of     05/28/03   22-03-501-03-386          2
Southern Arizona
Single Audit: Chattanooga Area Urban League      07/03/03   22-03-521-03-386          2


Workforce Investment Act
Services Provided and Outcomes Obtained for      09/30/03   02-03-204-03-390         10
Participants Enrolled In the WIA Dislocated
Workers Program During Program Year 2000
Evaluation of Youth Program Enrollments,         09/30/03   06-03-006-03-390          3
Services, and Recorded Outcomes
New Mexico Department of Labor, Las Cruces       08/18/03   21-03-010-03-390          1
One-Stop Career Center
Single Audit: State of Utah                      09/29/03   22-03-528-03-390          2            22,480


       Semiannual Report to the Congress
       April 1, 2003–September 30, 2003                                                                       43
                                                             Final Audit Reports Issued by the OIG
                      Appendix

Program Name                                        Date         Report            Number of      Questioned   Funds Put
Name of Report                                     Issued        Number           Nonmonetary       Costs       to Better
                                                                                Recommendations      ($)           Use
                                                                                                                   ($)

Bureau of Labor Statistics
GISRA: Current Population Survey System           09/22/03   23-03-013-11-001            15
Embargoed Data                                    09/15/03   23-03-014-11-001             3

Foreign Labor Certification
Overview and Assessment of Vulnerabilities in     09/30/03   06-03-007-03-321            0
DOL’s Alien Labor Certification Programs
                                                                   29                    89        737,036

                                                        Worker Benefits
Unemployment Insurance Service
Improved Quality Control Practices Within the     09/30/03   22-03-009-03-315            8                     428,000,000
Benefit Accuracy Measurement System Could
Save the Unemployment Insurance Trust Fund
Approximately $400 Million Annually
Single Audit: State of Michigan Unemployment      09/29/03   22-03-504-03-315            5
Agency
Single Audit: District of Columbia                05/28/03   22-03-523-03-315            5         17,792
Single Audit: State of Maryland                   09/29/03   22-03-526-03-315            3         495,417
Single Audit: State of Colorado                   09/30/03   22-03-529-03-315            5


Trade Adjustment Assistance
Evaluation of TAA Program Funding Issues in       09/08/03   03-03-008-03-330
the Commonwealth of Pennsylvania
                                                                    6                    26        513,209     428,000,000

                                           Worker Safety, Health, and Workplace Rights
Mine Safety and Health
GISRA: Imaging Management System                  09/22/03   23-03-011-06-001            24


Occupational Safety and Health
Evaluation of OSHA’s Handling of Immigrant        09/30/03   21-03-023-10-001            6
Fatalities in the Workplace
                                                                    2                    30

                                                   Departmental Management
ETA Management
Single Audits:
 State of Louisiana                               05/28/03   22-03-502-03-001             5       1,954,406
 State of Kentucky                                07/14/03   22-03-503-03-001            16
 State of Michigan Unemployment                   04/24/03   22-03-505-03-001            2
 State of New Jersey                              04/24/03   22-03-506-03-001            2
 South Carolina Employment Security               04/24/03   22-03-507-03-001            2
 Commission
 State of Oklahoma                                04/30/03   22-03-511-03-001            5
 State of Indiana                                 04/30/03   22-03-512-03-001            3          50,707
 State of Nebraska                                04/25/03   22-03-513-03-001            1


       Semiannual Report to the Congress
       April 1, 2003–September 30, 2003                                                                        44
                                                            Final Audit Reports Issued by the OIG
                      Appendix

Program Name                                      Date          Report            Number of      Questioned   Funds Put
Name of Report                                   Issued         Number           Nonmonetary       Costs       to Better
                                                                               Recommendations      ($)           Use
                                                                                                                  ($)
 State of Rhode Island                           05/29/03   22-03-514-03-001          5           578,000
 Sokaogon Chippewa Community Mole Land           09/29/03   22-03-515-03-001          2           29,394
 Band
 State of New York                               09/25/03   22-03-516-03-001          3
 State of Alaska                                 05/20/03   22-03-518-03-001          1           235.417
 National Senior Citizens Education and          04/30/03   22-03-519-03-001          3           652,973
 Research Center, Inc.
 State of Minnesota                              07/11/03   22-03-522-03-001          4           138,321
 State of Tennessee                              09/30/03   22-03-530-03-001          3
 State of Delaware                               09/30/03   22-03-532-03-001          1
GISRA: Foreign Labor Certification System        09/22/03   23-03-010-03-001         10


OASAM Management
Independent Verification and Validation of       09/30/03   23-03-015-07-001          3
Selected Agencies’ Plans of Actions and
Milestones for Information Technology Security
FISMA Executive Summary Report                   09/24/03   23-03-016-07-001


Safety and Health Center
DOL Fitness Association, Inc., Philadelphia      09/26/03   03-03-003-07-780          4


OIG Management
Office of Labor Racketeering and Fraud           04/28/03   09-03-001-09-001
Investigations San Francisco Office Non-
Specified (Emergency) Fund


Multi-Agency
Single Audit: State of Washington                09/29/03   22-03-524-50-598          2           288,053
                                                                  22                 77          3,927,271

                                                                  59                 222         5,177,516    428,000,000




       Semiannual Report to the Congress
       April 1, 2003–September 30, 2003                                                                       45
                                                   Unresolved Audit Reports over Six Months Old
                      Appendix

                                                                                                          Questioned
  Agency/         Date                                                                     Number of
                                           Name of Audit               Report Number                        Costs
  Program        Issued                                                                 Recommendations
                                                                                                             ($)
                                  Non-monetary Recommendations and Questioned Costs
                       Being Resolved in Conjunction with DOL Consolidated Financial Statement Audit
ETA/UIS         09/29/93 UI Performance Measures                      03-93-034-03-315           1
CFO/Admin       02/27/98 FY 97 Consolidated Financials                12-98-002-13-001           1
CFO/Admin       02/29/00 FY 99 DOL Consolidated Financial Statement   12-00-003-13-001           2
CFO/Admin       07/20/00 FY 99 DOL Management Advisory Comments       12-00-006-13-001           2
CFO/Admin       03/27/02 Department of Labor Consolidated Financial   22-02-004-13-001           4
                          Statement Findings and Recommendations
CFO/Admin       03/28/03 FY 02 Chief Financial Officer Findings and   22-03-003-13-001           5
                          Recommendations
Final Management Decision Issued by Agency Did Not Resolve–OIG Negotiating with Program Agency
ETA/JTPA     09/25/98 Cherokee Nation                                06-98-009-03-340       1
ETA/JTPA     09/22/99 New Mexico Service Delivery Area               06-99-008-03-340        1
ETA/JTPA     03/06/00 Single Audit: State of Iowa–1998               18-00-529-03-340        1
ETA/UIS      04/17/00 Single Audit: State of Louisiana               18-00-534-03-315       2
ETA/SESA     08/23/00 Single Audit: State of Florida                 12-00-514-03-325        4
ETA/UIS      09/21/01 Maryland Department of Labor, Licensing and    03-01-006-03-315        7                3,825,806
                        Regulations Audit of Indirect Costs
ETA/UIS      09/26/01 Security Testing and Evaluation Audit of the   23-01-004-03-315       2
                        Office of Workforce Security System
ETA/SESA     09/28/01 Real Property Issues Related to Federal Equity 06-01-003-03-325       2
                        Properties
ETA/UIS      03/22/02 Massachusetts Department of Labor and          03-02-001-03-315       1
                        Workforce
DOL/Multi    07/19/02 Single Audit: State of Ohio                    22-02-516-50-598       10
ETA/WTW      08/19/02 Columbus Urban League Welfare to Work          05-02-003-03-386       2
DOL/Multi    08/30/02 Single Audit: State of Montana                 22-02-520-50-598        2
ETA/UIS      09/13/02 State of Maryland Workforce Agency UI Tax      23-02-008-03-315       14
                        and Benefit Information System
ETA/UIS      09/13/02 UI Tax and Benefit Information System Security 23-02-009-03-315       17
ETA/WTW      09/30/02 Single Audit: Chattanooga Urban League         22-02-515-03-386        1
ETA/UIS      10/17/02 Wisconsin Unemployment Insurance Indirect      03-03-001-03-315       1
                        Costs
ETA/UIS      02/27/03 UI Tax and Benefit Information System          23-03-005-03-315       1
                        Security–California
ETA/UIS      03/11/03 UI Tax and Benefit Information System          23-03-003-03-315       55
                        Security–Michigan
OASAM/       03/28/03 Continuity of Operations–OASAM                 23-03-006-07-001        2
Admin
ESA/OFLS     03/31/03 2002 GISRA Audit–ELORS                         23-03-004-04-421       2
OASAM/       03/31/03 Audit of OASAM General Controls                23-03-007-07-001       5
Admin
OSHA/ Admin 03/31/03 2002 GISRA Audit–OSHA                           23-03-002-10-001       7
BLS/Admin    03/31/03 2002 GISRA Audit of BLS CES                    23-03-001-11-001       9


            Final Management Decision Not Yet Issued–Agency Awaiting Response from Internal Revenue Service
EBSA            03/29/02 Cash Balance                               09-02-001-12-121          2



       Semiannual Report to the Congress
       April 1, 2003–September 30, 2003                                                                   46
                                                    Unresolved Audit Reports over Six Months Old
                     Appendix

                                                                                                                Questioned
  Agency/        Date                                                                            Number of
                                          Name of Audit                    Report Number                          Costs
  Program       Issued                                                                        Recommendations
                                                                                                                   ($)


                Extension of Time Requested by Grantee to Respond to Grant Officer’s Initial Determination
ETA/WTW        03/31/03 San Antonio WTW Competitive Grant           06-03-002-03-386              3                  143,653


                                      Extension of Time Requested By Grantee and Agency
ETA/OJC        09/22/99    Audit of Talking Leaves Job Corps Center     06-99-010-03-370             9
ETA/JTPA       09/29/00    Single Audit: Commonwealth of Kentucky 1998 12-00-528-03-340              4
ETA/DINAP      02/13/02    Dallas Inter-Tribal Center                   06-02-001-03-355             1



            Final Management Decision Being Appealed or Awaiting Office of Solicitor Opinion
ETA/OJC        09/22/99    Audit of Talking Leaves Job Corps Center        06-99-010-03-370          9
ETA/JTPA       09/29/00    Single Audit: Commonwealth of Kentucky 1998     12-00-528-03-340          4
ETA/DINAP      02/13/02    Dallas Inter-Tribal Center                      06-02-001-03-355          1

                               Final Management Decision Not Yet Issued by Agency
ETA/SESA       12/08/99    Puerto Rico Department of Labor and Human       02-00-203-03-325          9           15,814,678
                           Resources
ETA/DSFP       06/02/00    Central Valley Opportunity Center               09-00-003-03-365         13              535,579
ETA/DSFP       09/26/00    Audit of Center for Employment and Training     09-00-006-03-365         15            5,797,229
ETA/Admin      07/25/01    Single Audit: State of Louisiana                22-01-506-03-001         28           23,201,664
ETA/UIS        09/21/01    Ohio Department of Job and Family Services’     04-01-006-03-315          4            1,085,283
                           Year 2000 Grant Expenditures
ETA/UIS        09/21/01    California Employment Development               04-01-008-03-315          5               848,643
                           Department’s Year 2000 Grant Expenditures
ETA/UIS        01/25/02    New York AUP Year 2000 Grant Expenditures       04-02-003-03-315          4            3,976,331
ETA/WTW        03/26/02    Pinellas Florida Welfare to Work                04-02-002-03-386          1              858,674
ETA/JTPA       04/24/02    Single Audit: Commonwealth of Puerto Rico,      22-02-509-03-340          3              225,273
                           1998
DOL/Multi      08/06/02    Single Audit: State of Florida                  22-02-512-50-598         30           22,001,496
ETA/Admin      08/30/02    Single Audit: State of West Virginia            22-02-518-03-001         1
ETA/WIA        09/26/02    Metro North Rehabilitation H1-B Technical       02-02-212-03-390         3
                           Skills Training Grant
ETA/WIA        09/30/02    San Francisco Private Industry Council H1-B     02-02-213-03-390          3               915,985
                           Technical Grant
ETA/Admin      09/30/02    Single Audit: District of Columbia Department   22-02-508-03-001          4
                           of Employment Services
ETA/Admin      11/05/02    Single Audit: State of Washington               22-03-500-03-001          1              707,593
ETA/WTW        02/26/03    WTW PIC SDA-V and Training Plus                 05-03-001-03-386         14            2,659,685
ETA/WTW        03/05/03    Abraham Lincoln Center WTW Program              05-03-002-03-386         36            1,259,974
ETA/WIA        03/05/03    Louisiana Training Providers Eligibility        06-03-004-03-390         1
ETA/DOWP       03/14/03    Farmers Union STEP Waco, Texas                  06-03-003-03-360          8               568,680
ETA/JTPA       03/31/03    Florida JTPA Closeout Grants                    04-03-002-03-340         1


Total Nonmonetary Recommendations and Questioned Costs                                              367          84,426,226




      Semiannual Report to the Congress
      April 1, 2003–September 30, 2003                                                                          47
                                           Investigations: Details of Accomplishments
               Appendix

                                                        Division         Totals
                                                          Totals

Cases Opened:
   Program Fraud                                            159
   Labor Racketeering                                        57            216

Cases Closed:
   Program Fraud                                            197
   Labor Racketeering                                        83            280

Cases Referred for Prosecution:
   Program Fraud                                             63
   Labor Racketeering                                        34             97

Cases Referred for Administrative/Civil Action:
   Program Fraud                                             70
   Labor Racketeering                                         3             73

Indictments:
   Program Fraud                                            127
   Labor Racketeering                                        69            196

Convictions:
  Program Fraud                                              89
  Labor Racketeering                                         47            136

Recoveries, Cost Efficiencies,
Restitutions, Fines/Penalties,
Forfeitures, and Civil Monetary Actions:
   Program Fraud                                     $18,893,355
   Labor Racketeering                                 $5,500,068    $24,483,423




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                  48
                                              Investigations: Details of Accomplishments
               Appendix


Recoveries:
(The dollar amount/value of an agency’s action to
recover or reprogram funds or to make other adjustments
in response to OIG investigations)                                            $1,762,962


Cost Efficiencies:
(The one-time or per-annum dollar amount/value of
management’s commitment, in response to OIG investigations,
to utilize the government’s resources more efficiently)                      $14,046,255


Restitutions:
(The dollar amount/value of restitutions resulting from
OIG criminal investigations)                                                  $6,811,424


Fines/Penalties:
(The dollar amount/value of fines, assessments, seizures,
investigative/court costs, and other penalties resulting
from OIG criminal investigations)                                               $358,782


Civil Monetary Actions:
(The dollar amount/value of forfeitures, settlements,
damages, judgments, court costs, or other penalties
resulting from OIG civil investigations)                                      $1,504,000


Total:                                                                       $24,483,423




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                     49
                                                                    Investigations Case List
               Appendix

                                                Convicted   Sentenced   Monetary
                                    FOREIGN LABOR CERTIFICATION
              Adeyanju, Elizabeth                  X           X
              Agoston, Cliff                       X
              Aranda, Maurillo                                 X              $100
              Atem, John Bisong                    X
              Baker, Jordan                        X
              Baldwin, Charles                                 X            $1,600
              Brown, Troy                                      X             $600
              Brown, Winston                                   X             $100
              Calanche, Muele                      X           X             $100
              Chauhan, Mahendra                    X           X
              Colon, Luis                                      X            $1,100
              Concepcion Jr, Pedro                             X             $850
              Cordoba-Rangel, Oscar                            X             $100
              Crumley, Katrail                     X
              Cuco, Dulce                          X
              Delafuente, Evaristo                 X
              Edwards, Vanderburgh                             X            $1,600
              Enriquez-Rivera, Victor                          X             $100
              Fall, Matar                          X           X
              Figueroa, Hilda                                  X              $100
              Guzman, Albert                       X
              Harmon, Dayion                                   X              $350
              Isaac, Jessie                        X
              Juarez-Valencia, Julian                          X              $100
              Kim, Byung                           X
              Konstantakakos, Evangelos            X
              Kooritzky, Samuel                                X           $12,300
              Koort, Omar                          X           X             $100
              Kovalinsky, Cyril                    X           X             $100
              Lewis, Kyann                                     X            $1,100
              Lopera, Javier                       X           X           $12,500
              Lopez, Raymundo                                  X             $100
              Mayorga, Desiderio                               X             $100
              Mcduffie, Anthony                                X             $350
              Mendez-Valencia, Carlos                          X             $100
              Modou, Ndour                         X
              Moultrie, Derrick                                X              $100
              Musesengwa, Doreen                   X
              Onnela, Monika                       X           X              $100
              Patel, Rajubhai                      X           X
              Rhorer, Michael                                  X            $1,000
              Robinson, Theresa                                X             $100
              Sabihi, Nabil                        X
              Sanchez, Julio                       X
              Sanchez, Samuel                                  X              $100
              Soeryanto, Robert                    X           X
              Solan, Erik                                      X             $100
              Thomas, Michael                                  X            $1,600
              Torres, Alejardro                    X


Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                        50
                                                                     Investigations Case List
               Appendix

                                                Convicted    Sentenced   Monetary
              Vega, Luz                                          X             $100
              Von Neumann, Ronald                  X             X
              Wamugi, Irene                        X             X
              Wamugi, John                         X
              Wang, Jai Yun                        X
              Watts, Kyle                                       X             $100
              Wordlaw, Marie                                    X             $100
                                                   29           39          $36,950
                                        EMPLOYEE MISCONDUCT
              Farmer, Michael                      X
              Reilly, Brian                        X
              “Pre-Trial Diversion”                X            X            $6,531
              Tolbert, Connie F.                   X            X           $10,500
              Vaughan, Kimberly                    X            X
                                                   5            3           $17,031
                                          ESA - BLACK LUNG
              Solomon, Geneva L.                   X            X           $15,004
                                                   1            1           $15,004
                                             ESA - FECA
              Bates, Juanita                       X
              Borghini, Elaine                                  X            $2,800
              Cook, Danny                          X
              Dessources, Joassim                  X
              Dodge, Daniel                                     X           $67,075
              Dubay, Neena                         X            X           $42,118
              Favors, Barbara                      X            X           $24,175
              Fernandez-Lopez, Martin                           X          $174,762
              Garard, Stanley                      X
              Guitierrz, Abdiel                                 X           $18,865
              Hall, Chenetra                       X
              Hurn, Patrice                                     X           $34,231
              Johnson, Herbert                     X            X           $22,894
              Johnson, Marvin                                   X           $54,279
              Johnson, Michael                     X
              Lamb, Charles                        X            X           $69,397
              Mauldin, Carolyn                     X            X            $2,348
              Mcmullen, Glena                                   X           $12,397
              Murray, John                         X            X           $37,000
              Petraro, Delana                      X            X           $20,623
              Postulka, Michael                                 X           $30,253
              Ribot, Angela                        X
              Richardson, Dave                     X
              Riddick, Donald                      X
              Rojas, Edward                        X            X           $13,660
              Rowe, Lewis                                       X             $200
              Ruckman, Kelly                                    X           $20,212
              Thomas, Monica                                    X            $1,700
              White, Carl                          X
              White, Fred                                       X           $65,000


Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                         51
                                                                  Investigations Case List
               Appendix

                                              Convicted   Sentenced   Monetary
              White, Mannix                      X
              Wilson, Kelvin                     X
              Wright, Jerry                                  X           $53,722
                                                 20          21         $767,711
                                          ESA - OTHER
              Behrens, John                      X
                                                 1
                                      ESA - WAGE AND HOUR
              Adkins, Donald                                 X           $42,946
              Chhibba, Ashok                     X
              Jit, Inder                         X
              Leibovitch, Avner                  X
              Macias, Gabriel                    X           X              $100
              Macias, Rene                       X
              Rehder, Dennis                     X
              Ryan, James                                    X           $44,847
                                                 6           3           $87,893
                                           ETA-JTPA
              Patton, James                      X
              Walston, Irving                    X
              Williams, Chandella                X           X            $3,756
                                                 3           X            $3,756
                               ETA - UNEMPLOYMENT INSURANCE/SWA
              Aldinger, Joy                      X
              Ahmed, Ferdous                                 X             $300
              Benton, Andrew                     X           X           $10,708
              Brydie, Vanessa                                X           $25,000
              Campbell, Gerald                   X           X            $1,748
              Concilio, Anthony                  X           X           $10,708
              Concilio, Christopher              X           X           $10,708
              Davis, Willie                                  X             $284
              Dibartolo, Victor                  X
              Florio, Alfredo                    X           X           $14,878
              Gallardo, Jeffrey                  X           X            $1,516
              Girardi, Phillip                   X           X           $21,538
              Gurney, George                     X           X           $10,760
              Howard, Lance                                  X            $3,366
              Ibarra, Jose                                   X          $400,301
              Maellano, Anthony                  X           X           $50,826
              Moore, Clema                       X           X           $12,822
              Pena, Ganaliel                     X           X             $200
              Ragni, Lorraine                    X           X            $9,639
              Sannutti, Anthony                  X
              Santilli, Mark                     X
              Santoso, Budi                      X
              Scott, Paula                                   X            $8,479
              Shively, Daniel                    X
              Vasquez Jr, Carlos                 X           X            $3,885



Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                      52
                                                                     Investigations Case List
               Appendix


              Wilbourn, Shelly                                  X           $10,420
                                                       19       20         $608,086
                                        ETA - WELFARE-TO-WORK
              A.F. Business Resources                  X        X          $291,349
              Loney, David                             X
                                                       2        1          $291,349
                                                   OSHA
              Minucci, Philip                          X
              Miranda, Oscar                           X
              Tristate Scaffold and Equipment          X
                                                       3
                                                BENEFIT PLAN
              Barbera, Jude                            X
              Bucci, Robert                            X
              Disilva, Thomas                                   X           $50,200
              Dunn, Ralph                              X
              Harnisch, Ronald                         X
              **Sealed**                               X
              Hutchinson Industries, Inc.              X        X          $219,600
              Jedlicka, Richard                        X
              Micciche, Anthony                                 X         $1,275,000
              Newman, Grace                                     X            $46,287
              **Sealed**                               X        X         $1,000,000
              Rodrigues, Gary                                   X          $438,203
              Rothman, Stanley                         X
              Roundtree, Howard                        X
              Sassano, Anthony                                  X            $2,000
              Smith, Timothy                           X
              Soto, Marta                              X
              Vario, Peter                                      X              $100
              Vitale, Martin                           X
              Waters, Galon                                     X          $535,741
                                                       13       9         $3,658,031
                                             INTERNAL UNION
              Babineaux, Neal                          X        X            $3,000
              Bohn, Denise                                      X          $855,587
              Buckley, Jeff                                     X
              Cannata, Salvatore                       X                         $0
              Carnes, William                                   X            $5,400
              Cashman, George                          X
              Crudo Brothers, Inc.                     X
              Eylenkrig, Anna                          X
              Gannone, John                            X        X           $15,000
              Harris Homes Carpentry, Inc.             X
              Juliano, Richard                         X
              Lore, Joseph                                      X          $821,628
              Marquez, Mark                            X        X            $1,600
              Mylek, John                                       X             $500
              Nasso, Julius                            X


Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                         53
                                                                     Investigations Case List
               Appendix

              Nasso, Vincent                        X
              Nelson Mill Company, Inc.             X
              Orsino Jr, Jerome                     X
              Pansini, Anthony                      X
              Porter, Anthony                       X
              Tornillo, Pasquale                    X
              Williams, Kendall                     X
                                                    17          8         $1,702,715
                                          LABOR MANAGEMENT
              Abramo, Philip                        X
              Arteca, Robert                                    X             $100
              Caporale, Anthony                                 X             $100
              Caravello, Sam                                    X            $2,400
              Caravello, Vincent                    X
              Coriasco, Richard                     X
              Diminno, Morris                       X
              Duong, Nhat                           X
              Ferrusi, Ralph                        X
              Giles, Vernon                                     X             $550
              Holland, Charles                      X           X           $15,100
              Kilcullen, Sean                       X
              Lara, Martin                                      X              $100
              Muscarella, Ernnest                   X
              Nhat Chuck, Duong                     X
              Nguyen, Luan                          X           X            $1,000
              Nguyen, Phuong                                    X             $100
              Russo, Anthony                                    X            $6,000
              Scarpati, Mildred                     X
              Schifilliti, Guiseppe                 X
              Sciandra, Margaret                    X
              Sciandra, Salvatore                   X
              Stabile, Stefano                      X
              Talavera, Louis                                   X           $36,130
              Troy, Richard                         X
              **Sealed**                            X
                                                    17          10          $61,580
                                          WORKER EXPLOITATION
              Farfan, Sergio                                    X             $500
              Jimenez Calderon, Librada                         X            $5,000
              Jimenez Calderon, Miriam                          X            $5,000
              Ruiz, Angel                                       X             $500
                                                                4           $11,000




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                         54
       OIG Hotline Activity

The OIG Hotline provides a communication link between the OIG and persons who want to
report alleged violations of law, rules, or regulations; mismanagement; waste of funds; abuse of
authority; or danger to public health and safety. During this reporting period, the OIG Hotline
received a total of 1,968 contacts. Of these, 1,737 were referred for further review.

Allegation Reports by Source:
Hotline Operations–Calls, Correspondence, and Walk-ins from Individuals or Organizations.....1,920
Correspondence from Congress ..................................................................................................... 8
Correspondence from DOL Agencies............................................................................................. 10
Letters from Non-DOL Government Agencies ................................................................................ 20
Incident Reports from DOL Agencies ............................................................................................... 4
Reports by OIG Components ........................................................................................................... 6
Total ..........................................................................................................................................1,968

Allegation Reports by Referral:
Referred to OIG Components ...................................................................................................... 129
Referred to DOL Program Management....................................................................................... 847
Referred to Other Agencies.......................................................................................................... 761
Total ..........................................................................................................................................1,737




Semiannual Report to the Congress
April 1, 2003–September 30, 2003                                                                                                           55
